<html>
<title> - NASA: PAST, PRESENT, AND FUTURE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    NASA: PAST, PRESENT, AND FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 16, 2017

                               __________

                           Serial No. 115-04

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
         
       				__________
       
                     U.S. GOVERNMENT PUBLISHING OFFICE
24-669PDF                   WASHINGTON : 2017                     
     
---------------------------------------------------------------------------------------- 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1d6c1def1d2c4c2c5d9d4ddc19fd2dedc9f">[email&#160;protected]</a>  
      

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
                            C O N T E N T S

                           February 16, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     4
    Written Statement............................................     5

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     7
    Written Statement............................................     9

Statement by Representative Babin, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    11
    Written Statement............................................    12

Statement by Representative Bera, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    14
    Written Statement............................................    16

                               Witnesses:

Hon. Harrison Schmitt, Apollo 17 Astronaut, Former United States 
  Senator
    Oral Statement...............................................    19
    Written Statement............................................    22

Lt. Gen. Thomas P. Stafford, Gemini VI, Gemini IX, Apollo 10, 
  Apollo-Soyuz Test Project Astronaut; Chairman, NASA 
  International Space Station Advisory Committee
    Oral Statement...............................................    38
    Written Statement............................................    40

Dr. Ellen Stofan, Former NASA Chief Scientist
    Oral Statement...............................................    45
    Written Statement............................................    47

Mr. Tom Young, Past Director, Goddard Spaceflight Center; Past 
  President/COO, Martin Marietta; Past Chairman, SAIC
    Oral Statement...............................................    56
    Written Statement............................................    59

Discussion.......................................................    66

             Appendix I: Answers to Post-Hearing Questions

Hon. Harrison Schmitt, Apollo 17 Astronaut, Former United States 
  Senator........................................................   100

Lt. Gen. Thomas P. Stafford, Gemini VI, Gemini IX, Apollo 10, 
  Apollo-Soyuz Test Project Astronaut; Chairman, NASA 
  International Space Station Advisory Committee.................   109

Dr. Ellen Stofan, Former NASA Chief Scientist....................   118

Mr. Tom Young, Past Director, Goddard Spaceflight Center; Past 
  President/COO, Martin Marietta; Past Chairman, SAIC............   125

            Appendix II: Additional Material for the Record

Statement submitted by Representative Neal P. Dunn, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   132

Document submitted by Representative Gary Palmer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   134

 
                    NASA: PAST, PRESENT, AND FUTURE

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2017

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:08 a.m., in Room 
2318, Rayburn House Office Building, Hon. Lamar Smith [Chairman 
of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Welcome to today's hearing entitled ``NASA: Past, Present, 
and Future.'' I'll recognize myself for an opening statement 
and then the Minority Member.
    NASA has a storied past. The witnesses before us today are 
proof of that. They personify the accomplishments of our 
American space program. Joining us today, we have two legendary 
astronauts, two accomplished scientists, two preeminent 
engineers, three space advisory body members, leaders from both 
the private and public sector, and accomplished managers. We 
have the only scientist to walk on another celestial body, a 
test pilot that has flown 120 different types of aircraft and 
three different space vehicles, a revolutionary leader in 
stealth technology development, a former Senator, a former 
Lieutenant General, a former NASA Center Director, the Mission 
Director for the first robotic landing on Mars, and NASA's 
former Chief Scientist, all in four people. Their impressive 
accomplishments give them the credibility to discuss the future 
of our space program.
    We stand at a crossroads. Sir Isaac Newton said, ``I do not 
know what I may appear to the world, but to myself I seem to 
have been only like a boy playing on the seashore, and 
diverting myself in now and then finding a smoother pebble or a 
prettier shell than ordinary, whilst the great ocean of truth 
lay all undiscovered before me.''
    Today, as we consider the next steps of the space program, 
we are all like that boy or girl. Presidential transitions 
offer the opportunities to reinvigorate national goals. They 
bring fresh perspectives and new ideas that energize our 
efforts. Now is the time to reaffirm our support for the bold 
visions and commitments that will shape America's future in 
space.
    The NASA Transition Authorization Act of 2017 is the 
culmination of many years' discussions and hopefully will soon 
pass the Senate and House. And it perhaps will pass the Senate 
tomorrow. This legislation has two goals. First, it reiterates 
the importance of maintaining NASA's continuity of purpose. The 
National Research Council's ``Pathways'' report, the Aerospace 
Safety Advisory Panel's recent reports, and numerous outside 
advisory groups and associations have all highlighted the 
significance of continuity. Without it, our space program will 
be left adrift and rudderless.
    Second, the bill allows the President to introduce a fiscal 
year 2018 budget request that reflects his priorities. With a 
fresh perspective, the White House will be able to work with 
the new Congress to implement the goals and initiatives 
necessary to continue our leadership in space. Our hearing 
today provides an opportunity to understand fundamental 
challenges before the new Administration and Congress. And we 
will explore possible directions for our space program that 
will benefit and inspire the American people.
    [The prepared statement of Chairman Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Now, that concludes my opening statement, 
and the gentlewoman from Texas, Eddie Bernice Johnson, is 
recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning to all. I want to welcome all of our distinguished 
panel of witnesses, and thank you for your service to the 
nation. I'd like to welcome our recently appointed new members 
to the committee and most especially our new Ranking Member, 
Dr. Bera.
    This morning, we will be discussing NASA, whose inspiring 
mission is nothing short of reaching for the stars. Mr. 
Chairman, dreaming big is what propels our nation to achieve 
lasting accomplishments. We all want our children and our 
grandchildren to believe in dreaming big and yes, in reaching 
for the stars. NASA provides tangible evidence that we can do 
just that.
    Over the past 6 decades NASA has sent humans to the lunar 
surface, robotically explored, all the planets in the solar 
system, landed and operated rovers on Mars, monitored Earth and 
its systems, and studied the sun, and looked deep into the 
universe. NASA has led the multination International Space 
Station partnership and has supported continuous human 
operations on the International Space Station for over 15 
years.
    In addition, NASA has made significant progress in 
demonstrating the use of commercially contracted services for 
cargo resupply of the ISS. And NASA anticipates that the ISS 
commercial crew transportation services will begin within the 
next few years.
    NASA continues to follow the priorities of the National 
Academies' Decadal Surveys for its service program. For 
example, the James Webb Space Telescope scheduled for launch in 
October 2018 will enable us to examine the first light after 
the Big Bang to the formation of galaxies, stars, and planets.
    I also want to recognize NASA's Earth science program, 
which has a long history of space-based observations in support 
of research to better understand our Earth's systems and our 
changing climate.
    In addition, NASA carries out aeronautics research, which 
has been vital to the growth and safety of America's aerospace 
industry. Today, NASA is making steady progress on developing 
the Space Launch System, the Orion spacecraft, and the 
exploration ground systems, the key systems that will enable us 
to once again send our astronauts beyond low-Earth orbit and 
eventually to Mars.
    And as important as these activities are to advancing our 
priorities in space and aeronautics, they are no less important 
to us here on Earth. Advances in human health research and 
medical diagnostic tools, materials, and advanced technologies 
developed through the space program have all helped improve our 
daily lives. However, we cannot take NASA's incredible 
achievements or the benefits they provide for granted. They 
will not continue without a sustained commitment of vision, 
resources, and support.
    It is clear that the challenge ahead of us is to provide 
NASA with stability and sustainability so that it can carry out 
the challenging task that our nation has given it. We can get 
to Mars, but we need a plan to do so that is sustainable over 
multiple decades. We can answer the difficult question of 
whether there is life in the universe by continuing to support 
the scientific investigation of our solar system and beyond. I 
have no doubt that, working together, we can enable NASA to do 
these things and more. However, we must be careful not to undo 
NASA's progress by changing directions with every new 
Administration. Simply put, we must commit to staying the 
course.
    Mr. Chairman, at a time when much of our national discourse 
revolves around what divides us, we can look to our space 
program as something that unites us.
    Well, we have a lot to discuss this morning and I look 
forward to our witnesses' testimony. I also look forward to 
working with you, Mr. Chairman, our colleagues on the 
Committee, and the new Administration to ensure that we give 
NASA and its partners the stability, sustainability, and 
resources needed to continue our leadership in sciences, 
aeronautics, human spaceflight, and exploration. I thank you 
and I yield back.
    [The prepared statement of Ms. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Ms. Johnson.
    And the gentleman from Texas, Mr. Babin, the Chairman of 
the Space Subcommittee is recognized for his opening statement.
    Mr. Babin. Thank you, Mr. Chairman. Good morning. I'd like 
to welcome you all here today for a very important discussion 
on where NASA has been and where it is and where it will go. I 
find it difficult to imagine a more qualified panel of 
witnesses with more personal insight and experience than the 
one before us today, than Dr. Schmitt, Lieutenant General 
Stafford, Dr. Stofan, and Mr. Young. I want to thank you very, 
very much for taking your time to come out from your busy 
schedules to be with us this morning.
    America's civil space program is nearing its 70th 
anniversary, and in the seven decades since NASA's birth, 
astronauts have walked on the lunar surface, spacecraft have 
ventured out into the interstellar void, telescopes have 
discovered thousands of planets orbiting other stars in our 
galaxy, but those exciting achievements were not free. It is 
very difficult to explore a universe of infinite wonder with a 
finite budget. We must prioritize our visions and destinations 
in a way that reflects responsible stewardship of American 
taxpayer dollars.
    Fortunately, the election of a new Administration and the 
start of a new Congress has given us the important opportunity 
to think about our space program and consider bold new 
directions and the future for our space program. For instance, 
should we return to the Moon? How can we ensure that the 
progress made on deep space exploration capabilities like the 
Space Launch System and the Orion continues in a fiscally 
responsible manner? Can public-private partnerships and 
international collaboration augment taxpayer investment? How 
would those partnerships be structured to ensure safety and 
attract private sector contributions and provide value to the 
taxpayer? Can we both extend ISS operations past 2024 and 
conduct deep space exploration without significant increases in 
NASA's budget?
    NASA's hard work over many decades is on track to provide 
the nation with the tools it needs to make a bigger, bolder 
future in space, and now is the time to start talking about 
what that future will look like. I hope that our witnesses here 
today can help make that conversation as lively and as vibrant 
as possible.
    Our continued leadership in space is not just about 
exploration. Our national security, our international standing, 
and economic competitiveness all depend on our leadership in 
space.
    I couldn't be more excited to discuss these crucial 
questions with today's witnesses, and I want to thank you all 
again for being here and I look forward to your testimony.
    I will yield back, Mr. Chairman.
    [The prepared statement of Mr. Babin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Mr. Babin.
    And the gentleman from California, Mr. Bera, the Ranking 
Member of the Space Subcommittee, is recognized for an opening 
statement.
    Mr. Bera. Thank you, Mr. Chairman. And good morning and 
welcome to the distinguished panel.
    Listening to the Chairman's description of the panel makes 
all of us feel like underachievers here.
    I also want to just take a moment to thank my Democratic 
colleagues for selecting me as the Ranking Member on the Space 
Subcommittee for this Congress.
    As a kid who grew up in Southern California in Downey, home 
of Rockwell International, much as my generation, the space 
program epitomized the national pride that we had in America, 
the fact that President Kennedy challenged us to dream beyond 
what we knew we could do, yet we set our minds to it, we 
focused on it, we recruited the best talents, and we went out 
and achieved it. And getting back to that pride is incredibly 
important.
    I think all of us remember waking up early in the morning 
to watch Apollo launches, holding our breath, watching Apollo-
Soyuz, Skylab, the Space Shuttle, and we've got to recapture 
that imagination again. We've got to--as the Ranking Member 
said, we've got to dream big. And that's why SLS and Orion are 
so important.
    We don't know yet how we're going to go to Mars with human 
space travel and return, but the goal of imagination and 
dreaming and achievement isn't doing what you know how to do, 
it's about setting that goal, taking the talent that we have in 
America, and putting our minds to it. Yes, we have limited 
resources, yes, we have other priorities, but we've got to get 
back to dreaming big.
    And it is that vigor that inspired a generation of kids to 
go into the sciences to move forward, and if we want to 
continue that superiority in technology and American pride, the 
importance of our national defense, it was great to see Dr. 
Stofan's opening remarks from my home State of California some 
of the work that NASA is doing in helping us manage water and 
address it--and it seems funny to be talking about a drought 
right now in this really wet winter, but what NASA does in 
helping us manage weather forecasting and so forth, it's 
incredibly important and national security.
    So, I am deeply honored to be the Ranking Member. The 
members of this Committee do not-- this is not a Republican or 
a Democratic issue. This is about national pride and leading 
the way. And I don't want an American space program that 
follows. I want an American space program that moves us forward 
and leads and works with the international community to 
continue to go to that next frontier.
    In my own District we've got an Aerojet Rocketdyne 
facility, and when I visit the workers out there and when I 
listen to the President talk about bringing manufacturing jobs 
back to America, it's those types of jobs that are not the jobs 
of the last century but the jobs of the next century. And it is 
pretty amazing the work that they're doing. And if we make the 
right investments, we can lead the way once again and lead the 
21st century space program.
    So, thank you to the distinguished panel. Thank you to the 
Chairman for calling this hearing, and I look forward to 
working in the 115th Congress to make this a reality.
    [The prepared statement of Mr. Bera follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Mr. Bera.
    Our first witness today is Hon. Harrison Schmitt, an Apollo 
17 astronaut and former U.S. Senator from New Mexico. His 
career as a geologist has taken him around the world and 
beyond. In 1965 he was selected as a NASA scientist astronaut. 
In 1971 Dr. Schmitt was assigned as a lunar module pilot for 
the Apollo 17 mission. He is the first and only scientist to 
walk on another celestial body. He then went on to serve in the 
U.S. Senate for six years, and he has also served as Chairman 
of the NASA Advisory Committee.
    With the sad passing of Gene Cernan, Dr. Schmitt is the 
last person alive to walk on the Moon.
    Dr. Schmitt has a bachelor's of science from the California 
Institute of Technology and his doctorate in geology from 
Harvard University.
    I'll now recognize the Vice Chairman of the Science 
Committee, the gentleman from Oklahoma, Mr. Lucas, to introduce 
our next witness.
    Mr. Lucas. Thank you, Mr. Chairman. And it is my privilege 
to introduce Lieutenant General Tom Stafford. Lieutenant 
General Stafford was born and grew up in Weatherford, Oklahoma, 
a town in my district literally just down the road from my 
hometown of Cheyenne. He was selected to be a part of the 
second astronaut class as a member of the Air Force in 1962 
where he began an amazing career. He commanded Gemini VI and 
Gemini IX before heading the mission planning analysis 
responsibilities for the Apollo project. And as commander of 
Apollo 10, he performed the first flight of the lunar module 9 
miles above the lunar surface and designated the first lunar 
landing site, obviously good radar and photography there, 
General, as successful as that was.
    Following the Apollo program, he worked at the NASA manned 
spaceflight center and logged his fourth spaceflight as an 
Apollo commander of Apollo-Soyuz test project mission in 1975, 
which helped end the space race.
    Since coming back to Earth, Lieutenant General Stafford 
worked as the Deputy Chief of Staff for the acquisitions at the 
Air Force. He initiated the F-117A stealth fighter, wrote the 
original specifications for the B-2 stealth bomber. He served 
as an advisor to the NASA Administrators over the past 20-plus 
years and has personally helped various vice presidents assess 
NASA's capacities and objectives. And he's currently Chairman 
of NASA's Advisory Council Task Force for the International 
Space Station safety and operational readiness.
    Lieutenant General Stafford, I believe I can speak on 
behalf of the whole committee and certainly every one of our 
fellow Oklahomans, we are honored that you are with us today 
and this morning and we look very forward to your comments. And 
as always, thank you for your service. I yield back, Mr. 
Chairman.
    Chairman Smith. Thank you, Mr. Lucas.
    Our next witness, Dr. Ellen Stofan, served as NASA's Chief 
Scientist from 2013 to 2016. There, she served as Principal 
Advisor to the NASA Administrator on the agency's science-
related strategic planning and programs. As a scientist, her 
research has focused on the geology of Venus, Mars, Saturn's 
moon Titan, and the Earth. Dr. Stofan holds a bachelor's degree 
from the College of William and Mary and a master's and 
doctorate degree in geological sciences from Brown University.
    Our last witness today is Mr. Tom Young, and he is the 
former Director of NASA's Goddard Space Flight Center, the 
former President and COO of Martin Marietta, and former 
Chairman of the Science Applications International Corporation. 
He began his career with NASA at the Langley Research Center in 
1961 and became Director of the Planetary Program at NASA 
headquarters in 1967. Mr. Young was recognized with NASA's 
highest award, the Distinguished Services Medal, for his role 
in the Viking project, the first time any country has 
successfully landed a payload on Mars.
    Mr. Young earned both a bachelor's degree in aeronautical 
engineering and a bachelor's degree in mechanical engineering 
from the University of Virginia and a master's of management 
degree from MIT.
    We welcome you all and certainly recognize your collective 
expertise. And, Dr. Schmitt, we'll begin with you.

              TESTIMONY OF HON. HARRISON SCHMITT,

                      APOLLO 17 ASTRONAUT,

                  FORMER UNITED STATES SENATOR

    Dr. Schmitt. Thank you, Mr. Chairman.
    I am an explorer. Freedom in America uniquely enhances the 
human drive to explore beyond familiar and/or unknown 
boundaries. Exploration is in our blood, as has been indicated 
by your statements. From the founders' foray into 
constitutional government to entrepreneurial enhancement of our 
pursuit of happiness to Jefferson and Lewis and Clark's opening 
of the American West and yes, to Eisenhower and Kennedy's bold 
initiatives leading to Armstrong's first small step on the 
Moon.
    Now, the Moon and Mars and deep space beckon new 
generations of young Americans, and I emphasize young. We would 
ignore their call at our peril.
    A program for Americans to land on Mars would be a 
remarkable and historic answer to that call. Such a landing, 
however, will not be easy. Mars has just enough atmosphere to 
cause trouble on entry but not enough to help. The great 
distance between Earth and Mars mean crews will not have 
mission control to help in critical operations. Gravity on Mars 
may or may not help astronauts adapt physiologically. Long 
transits to Mars may require artificial gravity and/or fusion 
propulsion and definitely will require heavy shields of water 
for radiation protection. The capability to launch 100 metric 
tons to Earth escape velocity may be required. At least two 
generations of young engineers, scientists, and skilled workers 
must relearn how to deal with the challenges and risks of deep 
space.
    To meet these challenges I am convinced that the Moon is a 
necessary steppingstone with great geopolitical and scientific 
value in its own right. Only 3 days away rather than many 
months, the Moon provides necessary resources, engineering 
verification, operational training, physiological insights, 
private sector partnerships, and the immediate geopolitical 
high ground.
    If the United States returns to deep space, Congress can 
gain valuable lessons from the Apollo Cold War space effort. 
The keys to success for the Apollo program were a sufficient 
base of technology and aircraft and spaceflight experience to 
begin; a large reservoir of patriotic young Americans and 
skilled workers, the Sputnik generation; a pervasive 
environment of national unease; the catalytic events of Sputnik 
and Yuri Gagarin's orbital flight; an articulate, persuasive, 
and patriotic President and Congress; a Congressional and White 
House commitment to about 100 percent manager reserve of 
funding so schedule could be maintained in the face of unknown 
and unknown-unknown problems; tough, competent, disciplined, 
courageous managers; and possibly as important as anything, a 
working environment of liberty.
    All these keys must accompany a Moon/Mars/deep space 
initiative but also include in addition today improved 
education in STEM skills and critical thinking, substitution of 
China's ambitions for the Cold War stimulus of the 1960s, a 
permanent national commitment to deep space exploration, 
maintenance of an average workforce age of less than 30 years, 
and elimination of an aversion to taking necessary risk.
    As detailed in my submitted testimony and on the America's 
Uncommon Sense website, a focused Apollo-style management 
system will be needed. This system must stay young, stay lean, 
and stay risk-takers. Once the decision to go back to the Moon 
and on to Mars is made, the sole focus of civil space 
management should be to do just that.
    With a well-managed Moon/Mars/deep space program, having 
sustained annual funding levels of about $20 billion per year, 
including 30 percent management reserve, the following 
milestones should be possible: return Americans to the Moon 
service by 2025, lunar settlement by 2030 with public and 
private capital funding partnership, lunar resource production 
by 2035 with private capital funding and management primarily, 
fusion-powered interplanetary booster also by 2035, Mars crew 
landing by 2040, and I believe Mars settlement by 2045. That's 
a big agenda.
    In conclusion, returning to the Moon will increase 
significantly the probability of success of a Mars landing and 
exploration program and to maximizing its scientific returns. 
Because of the multidecadal nature of such an effort, such a 
return to deep space exploration requires the unequivocal and 
sustained commitment of the nation, even more so than was 
required for the Apollo program again because of its 
multidecadal aspects.
    Finally, if the decision is to move quickly to reassert 
American dominance in space, we are, I believe, well-positioned 
to do so. The geopolitical environment facing freedom today is 
as critical as that which faced Congress and the Eisenhower and 
Kennedy Administrations prior to Apollo. Our current 
technological foundations actually greatly exceed those of May 
1961 having been vastly expanded by the nation's public and 
private sectors.
    Development of the Space Launch System is well ahead of 
Saturn V development at a comparable time thanks to leaders in 
Congress such as yourselves and to leaders in NASA. The Orion 
spacecraft is in test rather than being just a sketch on a 
blackboard. Constellation's Altair lunar lander design 
progressed well beyond early concepts of the Apollo lunar 
module. Understanding of human physiology and space has been 
greatly advanced by use of Skylab, the shuttle, and the ISS. 
Unlike the 1960s, the private sector is well-positioned to 
support as well as to partner with the federal government.
    I believe, Mr. Chairman, Congress and the Administration 
should move America back into deep space sooner rather than 
later. Thank you for your attention. I look forward to comments 
of my colleagues, and I would be happy to answer any questions 
that you or the committee may have. Thank you.
    [The prepared statement of Mr. Schmitt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Schmitt.
    And, Lieutenant General Stafford.

           TESTIMONY OF LT. GEN. THOMAS P. STAFFORD,

                GEMINI VI, GEMINI IX, APOLLO 10,

              APOLLO-SOYUZ TEST PROJECT ASTRONAUT;

                  CHAIRMAN, NASA INTERNATIONAL

                SPACE STATION ADVISORY COMMITTEE

    Lt. Gen. Stafford. Thank you.
    Chairman Smith. Make sure your microphone is on there. 
Okay.
    Lt. Gen. Stafford. Checklist. Mr. Chairman, Ranking Member 
Johnson, members of the committee, I'm honored to appear before 
you today to discuss our nation's space program. In my opinion, 
the timing and the subject of this hearing are perfectly 
chosen.
    One of the key issues confronting the new Congress and the 
new Administration will be how to go forward with restoring 
Americans' preeminence in space after what frankly for nearly 
eight years has been lost opportunities. And getting the 
program back on track is so important. The next steps will be 
to ensure the stability of the program.
    We have had in recent years seen all too clearly the 
consequences of failure to carry out the long-term objectives. 
The changing of major programs with the change of new 
Administrations has been detrimental to the nation's space 
program. NASA's past is one of the nation's crown jewels and 
one of the things that has made America great. It is a 
wonderful projection of what I would term soft power to the 
rest of the world.
    That encompasses nine Apollo missions to the Moon. Six of 
those were landings on the Moon. We have seven robotic 
spacecraft landings on Mars, the Hubble Space Telescope, the 
first rendezvous and landing on a near-Earth asteroid, robotic 
reconnaissance of every planet in our solar system, and the 
development of the space shuttle, and, with our international 
partners, the building and the operations of the International 
Space Station.
    I and my colleagues on this panel have had the incredible 
privilege and the good fortune to be part of that history, Mr. 
Chairman. Unfortunately, it is history. NASA's presence today 
does not do justice to its past. Many of our greatest 
achievements are no longer to be seen in flight, but rather to 
be found only in museums. We have abundant plans to return to 
the Moon, establish a lunar base and instead, just recently, 
start to talk but only talk about going one day to Mars.
    The next flagship science mission that we will have 
launched, the James Webb telescope, was started during the Bush 
Administration with nothing comparable initiated during the 
eight years of the previous Administration with the exception 
of a wonderful Congressional initiative to build the SLS and 
the Orion spacecraft. And I said last night at the meeting that 
the members of this committee and a similar committee in the 
Senate should be congratulated for taking the initiatives to 
say that America should go forward, and you all did a great 
job, just a wonderful job. I know it was--Bill Nelson was a 
leader for the Democratic side, Kay Bailey Hutchison, over here 
we have Mr. Gordon and Ralph Hall, whose picture I see on the 
wall there, a great leader, and a lot of the staff like Robert 
Obermann recognized, and many others.
    It was such a great effort by the Congress and this 
Committee in 2010 that set the umbrella that we are now 
proceeding in going forward. And we need--this future will turn 
return us to the Moon and then go on to an exploration of Mars.
    The SLS can be useful for many large robotics spacecraft to 
the outer planets and may be useful to the Department of 
Defense. And we have done a lot of studies in the period of '90 
and '91 I was asked by the Vice President to put together a 
large team to study how to go back to the Moon, go on to Mars 
in a way that is faster, better, and I'll use the word less 
cost, not cheaper. And so I gathered 45 people full-time. I had 
the commander of the space and missile system put together 150 
part-time. We had inputs from academia, industrial firms from 
all over the United States.
    And then for nearly 12 months we studied, and finally, the 
Vice President and I had a joint press conference in the White 
House and produced this book, which is the inputs of thousands 
of people called America at the Threshold still regarded by 
some as a Bible and a foundation. You can use variations of it, 
but that will take you back to the Moon and on to Mars.
    And I know it's not been fashionable to talk about the 
Moon, but the Moon is important and we said--one of our 
architects--that we would go there and learn enough, you know, 
from the environment and do simulations, too, with Mars, 
things, not to take up too much of the funding but enough to go 
there and then on to Mars.
    Thank you, Mr. Chairman.
    [The prepared statement of Lt. Gen. Stafford follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Lieutenant General Stafford.
    And, Dr. Stofan.

                 TESTIMONY OF DR. ELLEN STOFAN,

                  FORMER NASA CHIEF SCIENTIST

    Dr. Stofan. Thank you for inviting me before this Committee 
today. As the Chairman remembers, I was delighted to come and 
speak with you about life in the universe in 2015. Today, I 
want to share my optimism about where NASA currently stands and 
where it's headed.
    Over the next few years, I hope to join members of this 
committee to watch American astronauts launch from Florida 
aboard American spacecraft, feel the roar of the largest 
rockets since Apollo leave the ground, have my perspective of 
the universe changed by data from the James Webb Space 
Telescope, and have people's lives improved here on Earth by 
the continued observation and study of our own planet, and be 
much closer to answering that question ``Are we alone?''
    NASA's planetary, earth science, astrophysics, and 
heliophysics programs continuously rewrite textbooks with their 
discoveries. These areas of science are deeply connected and 
are leading us to discover an earthlike planet around another 
star. NASA's Kepler space telescope has found over 3,000 
planets around other stars, and telescopes launched in the 
coming years will further the search.
    Which brings me to Mars. Mars is the most likely place 
beyond Earth to have harbored and may still harbor life. Other 
targets include Europa, Enceladus, and Titan, but Mars is the 
closest, the most accessible for exploration, and the most like 
our own Earth. Finding fossil evidence of past life on Mars is 
not going to be easy, and I strongly believe it will take Mars 
astronauts to find proof of life.
    When I started as Chief Scientist, I was moving houses and 
I found an old newspaper interview with my father that he did 
when he became head of the space station in 1986. He talked 
about how the space station would lay the groundwork for humans 
to get to Mars in 20 years. I read this not long after having 
given a speech saying the exact same thing. Mars will always 
remain 20 years in the future without bipartisan support and 
the commitment to make it happen. It can be done without major 
increases in budget and without revolutions in technology. It 
just needs focus, constancy of purpose, and continued 
leadership.
    NASA has a sustainable plan to get humans to Mars orbit by 
2032 and land thereafter. This plan is built upon the research 
NASA does on the space station to prepare for longer duration 
of spaceflight and NASA's development of deep space 
capabilities. The next step is a habitat in lunar orbit in the 
mid-2020s to learn about the higher radiation environment and 
finalize development of long duration life-support systems.
    If international partners or the private sector want to go 
to the surface of the Moon, as the commercial sector is well on 
its way to doing, NASA is already supporting these efforts. In 
both low-Earth orbit and the surface of the Moon, the 2020s 
will be the decade of NASA moving out and the private sector 
moving in. By 2032 we'll be ready for the first human roundtrip 
mission to Mars with the surface landing to follow in the late 
2030s. Unlike past plans, this plan is sustainable as it 
assumes a level of spending consistent with post-Apollo 
reality. Should Congress want to up the relative spending, this 
timeline could be accelerated.
    Mars is the goal for human exploration and it is key that 
we keep our eyes on this prize, doing things we have never done 
before, pushing the limits. This is the proper role and should 
be the focus of NASA. When nations try to do great things, 
tough things that no one has done before, they move their 
country forward economically, strategically, inspirationally.
    But it's important to remember that the only planet we can 
actually live on is this one. From space, we are able to 
collect deep and continuing data sets of Earth that are 
directly beneficial to our economy, our national security, and 
to each one of us every day. Data gathered from NASA's Earth-
observing satellites and aircraft, coupled with NASA's support 
of fundamental research and analyses of these data enable us to 
better understand and predict our weather, make better land-use 
and urban-planning decisions, and respond to natural disasters 
and wildfires. Satellite observations of crops help us predict 
food security needs not just in this country but around the 
world.
    NASA data are helping us understand the rapid rate of 
change we see from melting sea ice in the Arctic, the loss of 
ice in Greenland and western Antarctica, changing patterns of 
vegetation, and rising sea levels.
    Water is a precious resource and a potential source of 
world conflict. Our satellites today are giving us an 
unprecedented view of the global water cycle. These data help 
farmers plan how to water crops, water resource managers plan 
for and deal with too much or too little rain, and warn us of 
possible droughts or floods.
    As Chief Scientist, I spoke to schoolkids here and around 
the world. NASA truly does inspire the next generation. They 
see NASA as a shining example of American ingenuity and 
leadership, American can-do.
    NASA has accomplished great things and now reaches to do 
great new things: find life on other worlds, walk on the 
surface of Mars, use our space data to help sustain and prosper 
life here. It just takes commitment and focus. With your 
support of NASA, you don't have to wait for the future to 
happen. You can create it. Thank you.
    [The prepared statement of Ms. Stofan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. And thank you, Dr. Stofan.
    And, Mr. Young.

                  TESTIMONY OF MR. TOM YOUNG,

           PAST DIRECTOR, GODDARD SPACEFLIGHT CENTER;

              PAST PRESIDENT/COO, MARTIN MARIETTA;

                      PAST CHAIRMAN, SAIC

    Mr. Young. Thank you, Mr. Chairman.
    NASA's accomplishments during the six decades of its 
existence have been extraordinary. It's hard to imagine a 
public or private sector organization that has accomplished 
more, given the level of difficulty of the NASA endeavors, 
including the array of accomplishments or observations that 
have revolutionized our understanding of our sun and planetary 
home, landers and rovers on the surface of Mars, robotic visits 
to all the planets of our solar system, telescopes that have 
looked to billions of years back in time and also have 
discovered hundreds of planets around other stars, humans 
walking on the surface of the Moon, and the development and 
operation of a space station that is a technological marvel. 
Truly, NASA has repeatedly turned the perceived impossible into 
reality. NASA's accomplishments have filled our books and 
electronics systems with new knowledge about our sun, Earth, 
our solar system, the universe, and humans operating in space.
    NASA has been a source of enormous national pride and 
international prestige. NASA has inspired our youth, as well as 
people of all ages. When we make the observation that great 
nations do great things, the NASA contributions are high on the 
list of great things. NASA has done its part in making our 
nation great.
    One of the more impressive accomplishments of NASA has been 
the human exploration program, specifically, humans walking and 
riding on the surface of the Moon while exploring and enhancing 
our scientific understanding of our nearest neighbor. While the 
lunar endeavor was spectacular, it also highlights a 
disappointment that no boots-on-the-ground human exploration 
venture has been accomplished since Apollo 17 44 years ago. We 
have the opportunity to rectify this disappointment in the next 
couple of decades.
    The enormous capability that has been developed from the 
multitude of successes, as well as disappointing failures, is 
often overlooked when assessing the accomplishments of the last 
six decades. NASA has an enormous bank of knowledge, expertise, 
and experience, largely resident in the people of NASA.
    It would be wrong to equate the accomplishments of the last 
six decades to NASA alone. The U.S. aerospace industry with 
implementation capabilities second to none has been an 
incredible partner. The industry has continued to develop its 
capabilities to implement the most challenging of endeavors.
    The third leg of this national capability is the depth of 
talent that resides in our laboratories and academic 
institutions. I believe the reason for the remarkable success 
of the last six decades is that we have fully utilized the 
continuity of expertise resident in NASA, in combination with 
the implementation capability of industry and the talent and 
capabilities in our laboratories and in academia.
    Space is a one-strike-and-you're-out business. It takes the 
absolute best of all sectors to assure success. Our space 
initiatives are focused on exploration and science. To maximize 
our exploration and scientific results also requires our 
absolute best. These lessons learned will be critically 
important to the future of NASA.
    So where is NASA today? The trend of challenging endeavors 
with anticipated incredible results continues unabated. The 
James Webb Space Telescope, SLS, Mars 2020 is the first step in 
returning samples from the surface of Mars to Earth and Orion 
are but examples.
    In addition to rigorously implementing the approved NASA 
program, our most important responsibility is developing a 
strategy for the future. This is currently critical because the 
challenges and opportunities are large and significant. With 
exceptional leadership, focus, commitment, and support, the 
future can be even more rewarding than the past six decades. It 
is also possible that we can spend a lot of money and 
accomplish little.
    There is a set of great questions that can guide our 
thinking about the future. Are we alone? What is dark energy 
and dark matter? Is it possible and practical for Mars to be a 
lifeboat or a second home for the human race? These are 
certainly--there are certainly other great questions, but these 
are opportunities to start the discussion. I believe we can 
answer each of these questions in the next few decades.
    I suspect we have all looked at the night sky and wondered 
if we're alone or if we have neighbors waiting to be 
discovered. The fact that we don't understand 90 percent of the 
universe says the opportunity for awesome discoveries awaits 
us.
    In discussing the NASA future, I'll separate my comments 
into science and human spaceflight. The science element is 
well-planned and focused upon the highest-priority endeavors. 
The National Academies' Decadal Surveys are well done with 
broad participation of the scientific community. NASA 
effectively utilizes the Decadal Surveys to establish direction 
for the science enterprise.
    The current and future strategic state of human spaceflight 
is cloudy, and current NASA budgets--approximately $9 billion--
is allocated to human spaceflight. Over the next two decades, 
that accumulates to approximately $180 billion, which should 
support significant accomplishments.
    My view is that there are too many potential paths 
competing for the available resources, making it imperative 
that difficult program decisions be made. About half the 
current budget is allocated to low-Earth-orbit endeavors which 
consists of the International Space Station, commercial cargo, 
and commercial crew. The other half of the budget is for human 
exploration, which includes SLS and Orion. A $4.5 billion 
budget is clearly inadequate for a capable human exploration 
program. A choice must be made and made soon between LEO and 
exploration.
    Additionally, there is discussion of NASA leading or being 
the catalyst for commercializing LEO. There are also plans for 
a cislunar space endeavor of approximately a decade duration. 
Date--debate continues as to whether the Moon or Mars should be 
the exploration objective.
    Are we going to have a credible human exploration program? 
Assuming the answer is yes, we needed to focus our physical and 
human resources on making exploration a credible reality. 
Failure to decide between these competing options will result 
in significant resources being spent and not--could not have a 
credible exploration program.
    My personal conviction is the primary human spaceflight 
goal for the future NASA should be exploration with boots on 
the ground on either the Moon or Mars. I believe Mars is the 
most compelling objective. I believe the commercialization of 
LEO should be the responsibility of the private sector with 
NASA providing technological support but not management or 
financial support. Above all else, a detailed plan for the 
human exploration program is mandatory.
    A future NASA focused upon the great questions with a 
science portfolio guided by the National Academies' Decadal 
Survey and a human exploration program concentrating on the 
human exploration of Mars can be responsive to the axiom that 
great nations do great things. NASA's future can be even more 
exciting and rewarding than NASA's extraordinary past. Thank 
you.
    [The prepared statement of Mr. Young follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Mr. Young.
    I'll recognize myself for questions. And, Dr. Schmitt, let 
me address the first one to you. You set some great worthy 
goals, landing again on the Moon in I think 2025, landing on 
Mars in 2040, only 25 years from now. What does NASA need to do 
that it is not doing now to get to Mars by 2040 and land 
astronauts on that surface?
    Dr. Schmitt. Mr. Chairman, I think the main demand to 
accomplish that would be to put together a management system in 
NASA that is comparable to what ultimately evolved for Apollo. 
That system would include an average age that's younger than 
NASA today. Young people provide that courage and patriotism 
and imagination that really made Apollo possible.
    During the Apollo 13 crisis, Gene Kranz did a survey when 
he had a moment of the ages of people in mission control, and 
the average age at that time was 26. The nuclear Navy keeps 
itself young, and it's well worth I think looking on how that's 
done. Of course, it's a military program and they have 
different rules than the civil service, but still, I think it's 
important for the long-term future of NASA to find a way in 
which it can keep itself young.
    Chairman Smith. Okay. Good. Thank you.
    Dr. Schmitt. That's one of many, but management is going to 
be the key I think.
    Chairman Smith. Okay. Thank you. Lieutenant General 
Stafford, just to take it to the shorter-term, say the next 4 
or eight years, what recommendations do you have for Congress 
and NASA as to what we can accomplish in that time frame? And 
let me add that yesterday, NASA announced--I don't know if you 
read it or not or heard it or not, but NASA announced that they 
are going to conduct a study about the very real possibility in 
two years of sending astronauts on SLS and do a Mars flyby. 
They're just conducting the study. They didn't commit to it 100 
percent yet but--I'm sorry, Moon flyby, not a Mars flyby. What 
do you think--that got your attention, didn't it? A Moon flyby 
in two years with astronauts on SLS. But what do you think of 
that idea? What do you think we could be doing in the next 4 to 
8 years?
    Lt. Gen. Stafford. Mr. Chairman, the one thing again is 
continuity and adequate management and budget resources. And 
it's so important I think that people understand why we need a 
big booster. And for the new members of the Committee here to 
emphasize that when I lifted off to go to the Moon, when Jack 
Schmitt lifted off, our--the total mass was about 6.25 million 
pounds. In 11 minutes we put approximately 300,000 pounds into 
orbit or a little--I had about 138 metric tons and Dr. Schmitt 
had a little bit more on his. And then we kicked out. And most 
of it was the third stage with the fuel in it, which was only 
4.8 percent of that giant booster.
    And what was the useful payload? The lunar module and the 
command module was a third of that, so we had 1.6 percent that 
went on to do that mission to land on the Moon, so this is why 
you need a big booster. You'll see all the different ideas. 
We'll take small ones and put them together and all this. Well, 
we've been through it and we've studied it from A-to-Z. It 
doesn't work.
    Chairman Smith. Okay.
    Lt. Gen. Stafford. We're started down the right path and I 
think--
    Chairman Smith. Good to hear. Okay. Thank you, Lieutenant 
General Stafford.
    And, Dr. Stofan, you have a special interest in discovering 
life in the universe elsewhere outside of our solar system, and 
I have a special interest in that as well. I think it's a 
fascinating subject. What are the prospects of discovering some 
form of life--vegetative, sentient, whatever it might be--
elsewhere in the universe outside our solar system? And do we 
have any hope, say, in the next ten years, with any of our 
telescopes or next-generation telescopes of picking up spectra 
from an earthlike planet, for example?
    Dr. Stofan. Well, as you know, we have all of the targets 
from Kepler of planets around other stars, some of which lie in 
the habitable zone, and then obviously we have the TESS, the 
Transiting Exoplanet Survey Telescope, that will launch in 
about a year-and-a-half that will, we think, find a habitable 
planet--a potentially habitable planet about one a month for 
its three-year mission.
    That means we're going to have a lot of candidates for the 
James Webb Space Telescope, which has the ability to look at 
the atmospheres of planets around other stars. So James Webb 
will hopefully start looking for gases like carbon dioxide, 
methane, oxygen, water that would be potentially indicative of 
habitability. But it's really going to take that next 
generation of space telescope, I think, to get us from 
identifying potentially habitable worlds to being a lot more 
confident that that world is actually potentially inhabited.
    Chairman Smith. Okay.
    Dr. Stofan. So for right now, I think our focus really need 
to be on our own solar system--Mars, Europa, Enceladus, Titan--
where we can really push this question of----
    Chairman Smith. Right.
    Dr. Stofan. --what are the bounds of habitability, what are 
the chances of life beyond Earth by really looking at our own 
solar system.
    Chairman Smith. Right. And as you know, NASA has plans for 
Europa as well, too.
    Dr. Stofan. Yes.
    Chairman Smith. With the indulgence of my colleagues, let 
me squeeze in one last question and it is this: Mr. Young, you 
mentioned the constraints of the budget. You said we have 
limited resources, all of which is true, so therefore, what can 
NASA do best, what can the private sector do best, in order to 
maximize the use of our resources?
    Mr. Young. I have a couple answers to your question, which 
is a very good one. First off, I really believe we've got----
    Chairman Smith. Will you pull the mic towards you just a 
little bit? Thank you. There.
    Mr. Young. I really believe we've got to make the hard 
decisions. We cannot distribute the limited budget over all of 
the possibilities that exist, even though they all have merits 
and we expect to accomplish them all. So we've really got to 
establish priorities, number one.
    The second thing is that I--having spent a bit of my life 
both in NASA and also in the private sector, I have some 
appreciation for both sides of the equation. NASA has enormous, 
what I call continuity capability, to apply to a given space 
exploration kind of an endeavor. Industry goes much more from 
project to project. It has enormous implementation capability. 
And I think we need to recognize what the strengths are that 
both groups bring to this particular problem.
    And when we're able to marry the enormous continuity 
capability that NASA has and the implementation capability that 
industry has, we seem to really be able to accomplish an awful 
lot. When we choose to tie one of their hands behind them and 
say, look, you know, we're only going to use part of your 
capabilities, that's when we usually end up with not very 
satisfactory results.
    Chairman Smith. Okay. Thank you, Mr. Young.
    That concludes my questioning, and I'll recognize the 
Ranking Member, Ms. Johnson, for her questions.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Let me thank all of you for your testimony. It's been very 
enlightening to me. And I guess my question now is I'd like to 
hear from each of you what you would recommend that we focus on 
for the next few years, and if we choose to continue to focus 
on all aspects--the Station, as well as pursuing Mars--how much 
money do you think we need?
    Dr. Schmitt. Congresswoman, the--that's a tough question--
--
    Ms. Johnson. Yes.
    Dr. Schmitt. --because as I said in my oral testimony and 
believe very strongly that if you decide you're going to have a 
deep space human spaceflight program that includes the Moon, 
Mars, and deep space itself, that needs to be a focus. And 
there are, I think, other ways in which we can implement the 
very fine programs that NASA has undertaken in the years 
largely since Apollo, but it really--it takes management focus, 
I think, to make sure that you're going to be successful and to 
deal with the geopolitical realities that drive you in that 
direction.
    Ms. Johnson. Thank you.
    Dr. Schmitt. So I think the Congress needs to examine just 
what is going to be required legislatively in order to provide 
that focus.
    Ms. Johnson. Thank you.
    Lieutenant General Stafford?
    Lt. Gen. Stafford. Ms. Johnson, the--as pointed out by the 
Chairman, we have so much money for the exploration, which 
includes, you know, space station and other things. And we've 
answered a lot of questions that were identified in this study 
and other studies. One thing is how do you close the loop to 
reuse the air? Every human being here at sea level, average 
weight, uses about 2.2 pounds of oxygen a day. You need about 6 
pounds of water a day and then approximately 1.5 pounds of food 
a day. Probably some people get more than that. But the main 
thing is the recycling. And the Russians started it. We started 
it really in Skylab, and now it's working very well on the 
space station.
    But, remember, as I pointed out, when Dr. Schmitt and I 
flew to the Moon, our useful payload was 1.6 percent of what we 
lifted off with. So if you have a pound--1.6 of oxygen, it's 
going to take 100 pounds of gross weight to start with. So the 
space station has answered a lot of that. It's been up there 
for quite a while. And by 2024 to me it should answer most of 
the questions that have been required.
    And also, we've determined with the--we call it the ARED, 
astronaut exercise resistant device, how to keep the bone mass 
up, the muscles up, and we've really come a long way. The 
station has really answered a lot of the questions. So some of 
that money could be used to go forward.
    Ms. Johnson. Thank you.
    Dr. Stofan. I think the focus should be--remain more or 
less as it is, implementing the Decadal Surveys; supporting 
basic research and technology development, as NASA does across 
its directorates; supporting aeronautics and the great support 
it gives to the aeronautics industry in this country; and to 
follow NASA's plan, ISS to 2024, support SLS and Orion, lunar 
habitat in the mid-2020s, Mars orbit in 2032. This is an 
achievable plan, and again, it more or less fits within NASA's 
existing budget. This does not require huge increases in 
budget.
    Ms. Johnson. Thank you.
    Mr. Young. I believe that if we continue on the current 
course with the multiple paths that we're on and the current 
budget, the committee hearing that'll take place ten years from 
now will say what a disappointing decade we had and that we 
will be negligibly closer to landing humans on Mars than we are 
today.
    So I think we have two real decisions to make. One is to 
narrow the number of paths and to focus on the highest-priority 
item. The second is--you asked about resources, and this is 
always dangerous and I haven't done an analysis, but if I had 
to answer your question, if you want to keep doing what we're 
doing today, what do you need? $10 billion-plus more per year.
    Ms. Johnson. Thank you very much. My time is expired.
    Chairman Smith. Okay. Thank you, Ms. Johnson.
    I've always felt we ought to have a pin that says one 
percent for NASA, which would be doubling our current budget.
    The gentleman from Oklahoma, Mr. Lucas, is recognized for 
his questions.
    Mr. Lucas. Thank you, Mr. Chairman.
    Lieutenant General Stafford, you may not have been there on 
the first day of NASA, but you've been there in one capacity as 
an astronaut or a manager or an advisor since the Kennedy 
Administration.
    Lt. Gen. Stafford. He was my boss for a brief period of 
time, too.
    Mr. Lucas. You're a lucky man. I bet he was there, too.
    Lt. Gen. Stafford. I was.
    Mr. Lucas. So, Lieutenant General Stafford, from your 
perspective if you could expand for a moment, what are the 
things that we on the committee should be concerned about? What 
perils lie out there that we should be prepared to think about?
    Lt. Gen. Stafford. Mr. Lucas, we talk about human 
spaceflight. The number one criteria is safety absolutely above 
all. And what concerns me is that NASA--we've set the criteria. 
We understand it, but yet at times it's gone away from us like 
those two accidents we had on the shuttle, the tragic fire we 
had early on in Apollo, but then we came back. Then we had 
Apollo 13, and we learned a lot of things. And we have all of 
these strict requirements. And if you violate those 
requirements, it can be a very bad day. That is one thing is my 
concern is we have safety and we have rigid reinforcement all 
the way through for that.
    Mr. Lucas. Very good observation, General. Also along that 
same line, there are opportunities that avail itself, whether 
it's the Moon or the asteroids or Mars or things a century on 
down the road, and there's lots of discussion in this day and 
time amongst members of the committee and the general public 
about NASA's role versus the growing industry so to speak, how 
to maintain that balance. Do you have any observations on that?
    Lt. Gen. Stafford. Well, the volunteer work I do now is the 
advisory committee for the International Space Station, so we 
just look at the mess, you know, coming up and there's been 
some failures we've had. But when I use the word commercial, I 
go back to my fortunate experience for about 30 years, and I 
served on 14 boards on the New York Stock Exchange over this 
period of time, so I think I understand what----
    Mr. Lucas. You have come a long way since Weatherford high 
school, yes.
    Lt. Gen. Stafford. Yes, sir. So--thank you, sir. But what 
is called commercial to me is not really truly commercial. It's 
probably more subsidized. That's what--Mr. Lucas, what I would 
say. But in other words, if you have commercial, you plan to 
make a profit, but where do the funds come from? Are you going 
to be able to sell this? Now, there's a long-term thing and 
there might be progress payments, but I don't really see it as 
pure commercial right now the way it is.
    Mr. Lucas. Thank you, General.
    Dr. Schmitt, you have the unique perspective not only of 
being an astronaut and a scientist, but you've been a part of a 
legislative body. You have--that other body.
    Dr. Schmitt. The other body, yes.
    Mr. Lucas. And that's a polite way to put it today, that 
other body. So you've seen the appropriations process from the 
inside. You've seen the budget process from the inside in the 
other body. Would you agree that we face certain challenges as 
a committee trying to make sure that resources are properly 
allocated to do the things we need to do? I mean, you went 
through these struggles as a Senator.
    Dr. Schmitt. Yes, no question about it, Congressman. The 
problem is political diversity. There is a great pressure to 
deal with many different things for many different 
constituencies, and I really think, again, that if we're going 
to focus on the geopolitical issue, we're going to have to 
truly focus. And everybody has to realize that there may be 
other ways to get the diversity, but the agency that is charged 
with going forward with human spaceflight is going to have to 
focus on that. And I think the House and Senate are going to 
have to focus and try to resist what has been going on and 
that's this political diversity that's been asked of the 
agency.
    Mr. Lucas. Well, Senator, I wholeheartedly agree with you, 
and I acknowledge we have to make tough decisions. Matter of 
fact, when I leave this committee hearing, I'm going to a 
meeting of the Ag Committee where we're going to discuss what 
you should be able to do with your food stamps. It should be 
lively and exciting.
    With that, Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Lucas.
    And the gentlewoman from Oregon, Ms. Bonamici, is 
recognized for her questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and 
Ranking Member Johnson, and to all of our witnesses today. I 
think this is the only Committee in Congress where the 
biographical information is longer than the testimony. So I 
really appreciate all of your expertise and your background.
    Lieutenant General Stafford, Russia has been in the news 
quite a bit lately, and there is much to be concerned about and 
investigated. But there have been other strained times in our 
relationship, and the space program has always stood out as a 
diplomatic success. It is vital that space exploration does not 
become a political issue between Russia and the United States. 
So what is your assessment of the current state of the Russian 
space program? We are, as of today, still relying on Russia for 
launching our U.S. astronauts to the International Space 
Station. Do you have any concerns about that or concerns about 
the reliability or quality of the launch vehicles or Soyuz at 
this time?
    Lt. Gen. Stafford. Well, Congresswoman, that's a very good 
question. And I was fortunate at the height of the Cold War 
when each country had 6 or 8,000 nuclear weapons aimed at each 
other we did the Apollo-Soyuz mission. And the Soviets and now 
the Russians--at times they were difficult as far as the 
negotiations. However, once they negotiated and signed up to 
the agreement, they lived up to it. And it worked out very well 
and set the background for the future shuttle here and the 
International Space Station.
    Now, they have recently had--well, over a period of time I 
think three progress failures that have gone on that booster. 
It's slightly different than what we fly with a spacecraft. 
Now, the--in the first stage of the Soyuz booster, they've 
flown over 2,000 and it's fairly reliable. It's in the upper 
stages where they're having the problems. However, the--it's a 
very rugged vehicle. It's landed in low hills and really 
mountains at times, something we haven't been able to do, and 
we can land on water so I--and they have upheld their part of 
the agreement all the way through. And again, they are very 
much aware of safety criteria as we are.
    Ms. Bonamici. Terrific. Well, thank you. And I think we can 
learn from history and what our countries have done in the past 
and maintained that relationship despite what happens in other 
spaces.
    So, Dr. Stofan, Oregon State University in my home State 
receives significant funding from NASA. The work they do helps 
inform important national activities you discuss in your 
testimony like weather forecasting, ocean monitoring. What are 
some of the concrete examples of how Earth science missions and 
research have benefited the American people and our economy?
    And then I also want to ask you--I'll ask you both 
questions at once. What can we do--we as Members of Congress, 
you as experts in your field--to inspire the next generation, 
as Dr. Bera was talking about, other than movies like Hidden 
Figures, which I think is playing a big part right now and 
inspiring young people? What can we do as communities to 
inspire young people to keep this mission going?
    Dr. Stofan. Thank you. I think when you look across what 
NASA is doing, you can pick certainly specific observations, 
for example, in California the work we've been doing with 
multiple sensors to look at with our GRACE spacecraft to assess 
the amount of water we've been pulling out of aquifers in 
California. We also did a test project over the last couple 
years where we were working with farmers to develop an app to 
assess the amount of water, the health of their crops, the 
amount of water they were using, and it actually got some of 
the farmers to use about 25 to 35 percent less water on their 
crops.
    So there's a lot of specific examples of this, of NASA 
working to solve problems, whether it's in agriculture or in 
water management, where we again have an app that's now in the 
hands of water managers and farmers to help them assess crop 
health and control their water usage.
    So across the board we've been taking NASA earth science 
data, which has historically been for the scientific community 
to do science stuff with and turning it into information that 
helps people in their everyday lives whether, again, its 
agriculture or water planning. This is critically important. 
And NASA has that unique global perspective, that unique 
vantagepoint of space. We develop the technology, we develop 
the next-generation instrumentation. And when I say we, I very 
much mean with our university partners in basically every State 
in this country. It's the NASA family that's doing all this 
work and giving the benefits to people in every State in this 
country.
    For that second part, you know, inspiration, Charlie used 
to say--Charlie Bolden, my boss, would always say, you know, 
the best STEM outreach NASA ever does is when we launch a 
rocket into space. When we do great things, that's when we 
inspire. And believe me, I'm a huge fan of STEM education 
programs, especially in getting girls and underrepresented 
groups involved and engaged in STEM.
    But the best way we can do that, the best way we can engage 
that NASA generation is the same way that we did in Apollo. 
When we have humans walking on Mars, you're going to see a huge 
spike in Ph.D.'s just like we did after Apollo, the well-known 
Apollo effect. We do nothing better than when we do great 
things. And from The Martian to Hidden Figures, you see the 
public really engaged in going to Mars. And we need to 
accomplish that.
    Ms. Bonamici. Thank you. My time is expired. I yield back. 
Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici.
    The gentleman from Alabama, Mr. Brooks, is recognized.
    Mr. Brooks. Thank you, Mr. Chairman.
    My question is to Lieutenant General Stafford, but please, 
if any of the other three would like to chime in after his 
remarks, feel free to do so.
    Lieutenant General Stafford, in your written testimony you 
mentioned that during an 11-month period from 1968 to 1969 the 
Saturn V rocket flew five times, roughly once every 2 months. 
This launch frequency is obviously much higher than the early 
plans for the Space Launch System. Should we worry about the 
Space Launch System launch frequency, and how will this impact 
safety and cost?
    Lt. Gen. Stafford. Thank you, Mr. Brooks. When you have 
long delays in between, you still have to--it costs money to 
have the support people there to go. And the better tempo you 
hit, the cheaper it's going to be--or should I say, sir, the 
less cost it will be per launch and also probably the safer it 
will be. And, you know, I think you need more than one every 
two years, and I don't know the optimum number but you need it 
where you have a somewhat repetitive, rapid repeatability, and 
that would definitely enhance safety, it would reduce costs.
    Mr. Brooks. But you testified that you don't know the 
optimum rate. From that I infer the exact optimum rate, but do 
you have some kind of judgment or range that you think would be 
preferable?
    Lt. Gen. Stafford. Well, Mr. Brooks I would say probably a 
minimum of two a year, three a year would be desirable, but a 
minimum would be two a year, sir.
    Mr. Brooks. Would any of the other witnesses like to add 
any insight?
    Dr. Schmitt. I would agree with that number. I think that 
two a year keeps the team active, keeps the team on their toes, 
and that's what I think Lieutenant General Stafford is 
referring to is that--having a launch every two years or so is 
certainly not optimum but two launches a year and a program 
that matches that I think is compatible with what we talked 
about earlier.
    Mr. Brooks. Mr. Young?
    Mr. Young. Yes, first off, your first question was should 
we worry about it? And the answer is yes, absolutely. When I 
was Director of Goddard, we managed the Delta rocket at the 
time. We launched one a month while I was there. When I was 
President of Martin Marietta, we launched an awful lot of large 
Titan vehicles.
    I think there's one thing that everybody in the launch 
vehicle business knows. The higher the launch rate, the higher 
the probability of success. And when you talk about launching a 
sophisticated rocket once every three years or once every two 
years, I think the answer in my view is that's not acceptable. 
And so where does the cutoff come? I don't exactly know. If you 
get to what--both comments that Tom and Jack made of two a 
year, two a year is not an unreasonable number. If you get much 
less than that, you really need to study the problem very hard 
to see if you have special techniques you can put in place to 
hopefully bridge the gap of not launching frequently. But the 
largest--I'm a big supporter of SLS, but the thing I would be 
most worried about is the infrequency of launches.
    Dr. Stofan. If I could also just quickly comment?
    Mr. Brooks. Please do.
    Dr. Stofan. The SLS rocket has the time to get to the outer 
solar system, so if we're pursuing this question of going out 
to those ocean worlds of the outer solar system, the SLS is a 
great asset. So the scientific community is always ready to 
make use of those extra launches.
    Mr. Brooks. In the limited time I have left this is a 
general question for whoever wishes to take a shot at it. Is 
there a market for heavy-lift beyond NASA? Is it possible to 
design effective exploration architectures that make use of 
both the SLS, as well as the commercial heavy-lift vehicles 
currently under development? And what are the advantages or 
disadvantages?
    Dr. Schmitt. Well, I'll take a crack at that. I think there 
is. I about ten years ago published a book where I thought the 
private investors might be interested in funding both a heavy-
lift launch vehicle and activities on the Moon in pursuit of 
lunar resources, particularly fusion fuel helium-3. Now, with 
the SLS that partnership I think is even more viable with the 
government because the private sector can now--or the investor 
sector can concentrate on the resource side of things rather 
than on the launch vehicles. So if you put together that kind 
of a partnership for lunar development, then I think, yes, 
it'll be a tremendous need for launches on the order of two a 
year if not more.
    Mr. Brooks. Thank you, Mr. Chairman. I see my time has 
expired. I yield back.
    Chairman Smith. Thank you, Mr. Brooks.
    And the gentleman from California, Mr. Bera, is recognized.
    Mr. Bera. Thank you, Mr. Chairman.
    Yes, I kind of think about and reflect on my opening 
comments and think about the success of the Gemini and Apollo 
programs. Let me just read President Kennedy's quote. ``We 
choose to go to the Moon. We choose to go to the Moon in this 
decade and do the other things not because they are easy but 
because they are hard, because that goal will serve to organize 
and measure the best of our energies and skills, because that 
challenge is one that we are willing to accept, one we are 
unwilling to postpone and one we intend to win, and the others, 
too.''
    And in laying down that challenge to us as a nation, he was 
also touching on the importance of strong science research 
programs, the importance of federal funding, the importance of 
investing in the next generation so that we would have that 
next generation of scientists. Now, I wasn't born when he gave 
that speech, but I'm a direct beneficiary of the challenge that 
was laid out there, and I think all of us in the country are.
    Would you say part of the success was that there was a 
direct challenge in a specific timeline that wasn't about one 
Administration to the next because achieving the goals spanned 
Administrations but there was a clear goal that was set out? 
Lieutenant General Stafford?
    Lt. Gen. Stafford. That's a very good point, sir, and I do 
think we need specific goals and we need stability. But one 
thing I'd recommend to the Committee--and I said this before--
that I saw that was so effective was called the National Space 
Council. And it was put into law by the majority leader after 
Sputnik at the same time DARPA was formed and NASA was formed. 
That was by Majority Leader Lyndon Johnson called the National 
Space Council. President Eisenhower decided not to activate it. 
For some reason he thought it would take away some power, but 
as soon as President Kennedy was elected, he put Vice President 
Johnson in charge of the National Space Council.
    And believe me, sir, I was new to NASA but it flat moved, 
and then after him, Hubert Humphrey, and it continued on until 
President Nixon reorganized the White House in 1973 and it went 
away. The next time it was reactivated was when President Bush 
Senior said let's go back to the Moon and on to Mars and put 
Vice President Quayle in charge of the National Space Council. 
And that way it was focused and you didn't have people like 
lower-level OMB people taking pieces out here or there or think 
that they help to recognize--it focuses it.
    Mr. Bera. Absolutely. So having a specific goal, having a 
specific time frame that doesn't change from Administration to 
Administration----
    Lt. Gen. Stafford. That's right.
    Mr. Bera. You know, my colleague from Colorado gave me this 
sticker. It says ``2033: We can do this.'' you know? And--
right, we can do this. And, Mr. Young, you touched on it.
    Mr. Young. Yes, if I could just add a little bit to your 
question. I think having it--absolutely the answer is yes. I 
was a young engineer at that time working for NASA. There was 
no confusion by me or my colleagues as to what our objective 
was, what we were trying to accomplish. And anything that was 
not critical to the success of that accomplishment, we just 
didn't do. In other words, we were focused on that goal and 
that objective. And I mean I remember that as rigorously as I 
can remember anything. And unfortunately, that's not where we 
are today.
    Mr. Bera. And I think if we want to accomplish what we want 
to accomplish, we have to get back to that and folks can sit 
here and say, well, we're in political turmoil as a nation, 
we're divided. Look back at the 1960s. I don't think it was a 
time of political stability, yet we had national pride, we had 
a national goal, and we went out to accomplish it. And in some 
ways that could be what brings us together as a nation as well.
    Dr. Schmitt?
    Dr. Schmitt. Congressman Bera, I totally agree with you. 
That's why in my oral testimony and written testimony I 
indicated milestones. I think you need those. You need to 
commit to those. And one essential ingredient is that Congress 
and the OMB and the White House have to be willing to provide 
management reserve of funding. You cannot make milestones in 
complicated programs unless you have a management reserve. Now, 
do you need 100 percent like we had an Apollo? No, we're much 
smarter than we were. But I think generally a 30 percent 
management reserve until you get to critical design review on 
various systems is absolutely essential to keep on schedule.
    Mr. Bera. Right. And, Dr. Stofan, you've already laid out 
what those milestones are to go into orbit around Mars in 2032. 
Was that the goal? Well, let's set that out there. Let's put it 
out there and let's not continually change course. Let's 
actually dedicate the resources, the person power and inspire 
that next generation. So I notice I'm out of time but thank you 
guys for everything that you've done for our country.
    Chairman Smith. And thank you, Mr. Bera.
    And the gentleman from Illinois, Mr. Hultgren, is 
recognized for his questions.
    Mr. Hultgren. Thank you, Chairman. Thank you all so much 
for being here. You truly are our heroes. We're grateful for 
each one of you, what you've done and continue to do, so thank 
you so much for that. You're fine.
    But I have some questions for you, and this is an inspiring 
time but also any time I get a chance to talk about NASA is 
inspiring to me. And I think it's so important for us to be 
starting this new Congress and this great Committee, which I'm 
so honored to serve on with Chairman Smith and my colleagues, 
but it is so important for us for so many reasons. But I think 
maybe one of the most important reasons is how NASA, throughout 
our history, continues to be such a place that inspires the 
next generation, next generation of astronauts, of scientists, 
of physicists, of people engaged in that discovery, that idea 
that has always been such a key part of who we are as a nation.
    And so I have been really excited. One of the things that 
we've been doing in my district recently is we reached out--I 
represent seven counties but we reached out to high school 
students and we started a STEM scholar program where I meet 
with 19 of our STEM scholars from around the 14th Congressional 
District in Illinois. We meet monthly going to different STEM 
facilities, whether it's a research facility or a university or 
other things to be able to learn from them.
    I had a chance to be with some good friends of mine, the 
Cain brothers. Cain Tubular has worked very closely with NASA 
in exhaust systems for our rocket engines and the students just 
loved it. We had a person from NASA come in and speak to them 
as well. So, so good for us to learn together, be inspired, but 
also to hear from them what's worked for them, what teacher 
inspired them, what program inspired them.
    So I asked them if they had any questions for NASA, for 
astronauts, for scientists who have been engaged in important 
work, so I reached out to them and I'm going to use the 
remainder of my couple of minutes to ask some of the questions 
that my STEM scholars had if that's all right.
    First, Claire, who is just a brilliant young student, has 
been involved in FIRST Robotics as an engineer, drive coach, 
and outreach coordinator for her team ``Got Robot.'' But Claire 
asks how does NASA--what has NASA done in the past and what 
does it plan to do to continue to encourage students to pursue 
careers in STEM to become that next generation of brilliant 
scientists and astronauts? And is there a way that NASA can 
help build curriculum or lessons that could reach more students 
to be able to do that? And I'd just open that up. What do you 
think NASA is doing or should do to inspire young people, that 
next generation of astronauts and scientists?
    Dr. Stofan. You know, through our NASA education programs, 
we have a lot of programs that are focused on kids in STEM and 
how to get kids engaged in STEM. And I think it's a constant 
challenge on how do we make sure those programs are really 
producing good results. You know, how can we make sure that 
they're effective? And I think over the last several years 
we've really taken a hard look at our programs and tried to 
say, where are we actually moving the needle on this? It's a 
huge source of frustration when we still don't see girls and 
underrepresented groups getting into STEM.
    One of the things we do that I think is effective is we 
partner with FIRST Robotics----
    Mr. Hultgren. Good.
    Dr. Stofan. --for example, and I think----
    Mr. Hultgren. It's a great, great program.
    Dr. Stofan. --it's a great program.
    Mr. Hultgren. Me, too. Good. I think to just continuing to 
tell your story, and we had the chance last Congress to be able 
to connect with astronauts up on the International Space 
Station. And I see all the time as I see the NASA channel, 
oftentimes, our astronauts are connecting with students and 
school groups and how important that is.
    Let me ask another quick question. Andrew, another one of 
my STEM scholars from St. Charles, Illinois, another brilliant 
young man who is very interested in cyber issues, 
cybersecurity, he's a CyberPatriot and also very active in the 
Civil Air Patrol and Air Force Association. But he had a three-
part question if I can ask my last one. As we continuously are 
moving forward in an interconnected world on the digital level 
with a greater need for computing power for our future space 
travel and advancements, we know that our adversaries will take 
advantage of every aspect of our nation's vulnerabilities. How 
can someone like me--this is Andrew asking--who is currently 
involved in cybersecurity education and competition for the 
past three years contribute to the current and future space 
travel and advancement? Also, do you think cybersecurity plays 
a major role in NASA? Lastly, what is the current demand for 
cybersecurity jobs in NASA?
    Dr. Schmitt. Well, it sounds like that young man is doing 
everything he needs to do to get ready----
    Mr. Hultgren. I'm just trying to grab onto his coattails. 
He's amazing.
    Dr. Schmitt. --and to answer his own question. I have some 
responsibilities in Orbital ATK for cybersecurity, and it is an 
extraordinarily complicated issue. It has to be addressed by 
the government as well as by corporations, and it's just going 
to be something that's with us continuously, and we're just 
going to have to start to get smarter and smarter.
    One of the things that has interested me recently is to try 
to get security built into processors. And the Draper 
Laboratory, with which I'm also associated, has developed some 
means to do that so that you continue to use the firewalls and 
the whitelisting and other aspects of cybersecurity, but you 
build into the processor that kind of security. And I think 
it's an intriguing idea, and it's something that Andrew may 
want to look into.
    Mr. Hultgren. Good. Thank you. My time is expired. We have 
some other questions that I hope we can maybe give to you all. 
Some of my other STEM scholars had questions if we can follow 
up.
    One last word, Chairman. I just want to say thank you to 
Lieutenant General Stafford, all of you, so grateful, but, 
Lieutenant General Stafford, I really appreciate all that you 
have done and mean to us and really appreciated your words last 
night talking about Gene Cernan and your work with him. We miss 
him but we're just so grateful to you and all that you mean to 
us as a nation but also to our space program. But all of you, 
thank you so much. With that, I yield back.
    Chairman Smith. Thank you, Mr. Hultgren.
    And the gentlewoman from Connecticut, Ms. Esty, is 
recognized for her questions.
    Ms. Esty. Thank you, Mr. Chairman. And again, many thanks 
to the Ranking Member, to the Chairman, and really to our 
distinguished panelists today.
    We have a lot of STEM activities in my District and had the 
excitement of having a direct link from the International Space 
Station with 3,000 students watching from Waterbury, 
Connecticut, seeing a graduate from their high school talk to 
his former calculus teacher. And I will tell you, there is very 
little--you've all mentioned the importance of students really 
seeing that.
    So the challenge we face here is we've got a lot of 
different objectives for NASA on the table right now and not 
enough money and not enough time to pursue them all in a 
sequence that inspires. So if you can talk a little bit more, 
how do we establish benchmarks? And if you are willing to say 
what would you lop off or put down to lower priorities if we 
really think that manned exploration is vital, which many of 
you have said, if you have to triage--I think we'd rather plus 
up here but we may not have that option. And I see Mr. Young is 
ready to go with the triage question. Thank you.
    Mr. Young. It's a great question and I actually think the 
crucial question. My personal belief is that the priority for 
human spaceflight should be exploration, boots on the ground, 
either the Moon or Mars. My choice is Mars. To do that we've 
got--as you say, we've got to not do some other important 
things. My personal belief that I mentioned is commercializing 
low-Earth orbit, I think NASA should not be in that business 
except for providing technological support. So that would be my 
item that I would cross off.
    International Space Station is the more difficult of the 
questions. I personally--and there's no way that we can have a 
credible exploration program and a credible low-Earth orbit 
space station program at the current budget in my view. So I 
would prioritize those things that are necessary to support 
humans to Mars. I would accomplish those and I would transition 
if possible it to the commercial world as soon as I could.
    The other thing that's going to consume a lot of resources 
is the decade-worth of effort in cislunar space. I personally 
believe there's a lot of things that need to be done in 
cislunar space to support the Mars program, but I wouldn't 
establish a cislunar space program on its own. I would 
establish a Mars program, and then from the Mars program, I 
would figure out what do I need to do in cislunar space to get 
to Mars.
    So I think a human-to-Mars mission will stretch us almost 
to our limits but I think is achievable. But to do it we've 
kind of got to do just what you said. We've got to prioritize. 
That would be my personal priority. The country could decide 
it's another priority. You know, maybe commercializing low-
Earth orbit is the right priority. If that's true, get the rest 
of the stuff out of the way, but it's not what I would 
personally do.
    Ms. Esty. I see at least two other nodding heads on 
prioritizing Mars. Does everyone have an agreement around that? 
Because if this is--we are going to have to make some very 
difficult decisions if we are going to achieve any of these 
things in a time frame that makes any sense. And I think we--as 
our colleague Dr. Bera underscored, you do need focus, and that 
does help--public support is enhanced when there are timelines 
and there are benchmarks and people can see that progress. That 
galvanizes support, which makes it easier for us to achieve not 
just that goal but other ones as well.
    Others who would like to chime in?
    Dr. Schmitt. Well, I think Tom Young has articulated it 
very well. I have already made the leap that the Moon is 
extraordinarily important to get to Mars, but I think anything 
you do in this so-called cislunar space has to be with that in 
mind. It doesn't mean other things won't happen as a result 
scientifically and operationally, but you really do need that 
experience. A generation or two needs the experience that we 
used to have as a result of Apollo if you're going to go to 
Mars successfully.
    Dr. Stofan. Yes, I think it's really critical that we do 
say focused. And I would call the Committee's attention to the 
work that Mr. Lightfoot has been doing over the last several 
years to really look inside NASA and say, you know, what are we 
duplicating at our various NASA centers? How do we focus? Over 
the last, I would argue, at least ten years, NASA has been 
carrying too many potential futures, too many potential paths. 
Robert has already begun the work to try to say we have one 
path; we're going to Mars; let's narrow this down. We've 
started on that path. The guidance of this Committee, of this 
Congress, would help solidify that.
    Ms. Esty. Thank you. That's all very helpful for us 
because, again, we want to be helpful in achieving these 
missions, and if there are too many missions, none will be 
achieved. And that is a great loss not to just this country but 
really to the future of the human species. So we would like to 
be helpful in this process. Thanks--thank you very much. And it 
looks like the General also has----
    Lt. Gen. Stafford. Yes, I'd like to point out one thing to 
the Committee, particularly the new members. In physics when we 
talk about Mars, you know, it's in a 687-day orbit where we're 
in a 365-1/4. It's inclined 1.9 degrees. You put all this 
together, which APL did this for us in a study. And you have--
you can only launch from Mars every 26 months, and you have 
about a 60-day window. But also there's a sinusoid, an energy 
per kilogram--or pound if you want to put it that way--that's 
required and we're right down--there's a 15-year sinusoid, and 
we're right down near the minimum now, 2016, '17, '18. Then it 
starts back up. By the time you get to, say, 2024, '25, you're 
up near the peak so it's going to take--you can only put a 
little payload there. Then it starts down. And so 15 years from 
now, 2031, '32, '33, you're down in this thing so you can set a 
target. But that is that one thing when you talk Mars that you 
have to remember all the way, that 15-year sinusoid.
    Dr. Schmitt. I'm going to beat that with fusion propulsion, 
Tom. You won't have to launch every 26 months.
    Chairman Smith. Thank you, Ms. Esty.
    And the gentleman from Oklahoma, Mr. Bridenstine, is 
recognized.
    Mr. Bridenstine. Thank you, Mr. Chairman. Serving on this 
Committee is a high privilege, especially because we have the 
opportunity to discuss things like this with this amazing 
panel. So thank you all for being here.
    Before I get started on Moon/Mars, I think that's an 
important discussion, but I want to say the first time I had a 
conversation with the Lieutenant General Stafford I was running 
the Tulsa Air and Space Museum. I had just left the United 
States Navy as a pilot and here I am at this museum. We made an 
effort, Mr. Chairman, to get a space shuttle in the city of 
Tulsa, and we had a long history with the shuttle. We built the 
bay doors on the space shuttle. We had built the shuttle 
carrier aircraft, the 747 that carries carries the shuttle on 
its back was modified in Tulsa. We built the big devices that 
picked the shuttle up and make it vertical for the launch deck. 
NASA said you need a 10,000-foot runway to have a shuttle on 
display at your museum. You need a museum dedicated to 
education.
    So we made this effort to go after a shuttle. And I was 
pretty new at the museum at the time and I get this call, and 
my staffer comes in and says Lieutenant General Tom Stafford is 
on the phone for you. And I said yes, and the Easter Bunny is 
on line two, right? And of course Lieutenant General Tom 
Stafford was on the Board of Directors for the National Museum 
of the U.S. Air Force and he wanted to let me know that the 
U.S. Air Force Museum was going to be getting a shuttle and not 
the Tulsa Air and Space Museum.
    I'm sad to report, sir, that neither one of us got a space 
shuttle, but it was a great conversation and I appreciate you 
being from Oklahoma. If none of you have--if you've ever been 
to Oklahoma, if you ever get a chance to go to Oklahoma, I 
highly recommend visiting the Tom Stafford Museum. You're doing 
a lot to inspire the young, you know, generation in Oklahoma, 
and thank you for all your great work there.
    I want to talk for a second about this Moon/Mars thing 
because I think it's important. While we all want to go to the 
Moon, and certainly with my friend from Colorado, Mr. 
Perlmutter, 2033, great goal; I think it ought to be 2032. I 
think most Republicans agree with the 2032 number. But while 
that's important, I've heard Dr. Schmitt and Lieutenant General 
Stafford talk about the geopolitical issues here, the fact that 
there is a soft power element here.
    We know what China is doing. They're launching taikonauts 
on Chinese rockets to their own Chinese space station. Not too 
long ago they put an orbiter around the Moon to map the Moon. 
After a year of mapping the Moon they launched it deeper into 
space to the L2 point 60,000 kilometers on the back side of the 
Moon where it shut down and just hovered for a period of 8 
months before repowering and flying into deep space in 
formation with an asteroid. That is a massive achievement and 
accomplishment that is astonishing.
    We also know that the Chinese have launched direct-ascent 
antisatellite weapons, one that in fact shot down one of their 
own satellites, creating a space debris field of 3,000 pieces.
    We also know that they are currently testing antisatellite 
weapons all the way out to geostationary orbit where our most 
important communication satellites, AEHF or nuclear command and 
control communications, WGS. For those of us that are tactical 
operators, we depend on WGS and of course all of our space-
based infrared systems to detect missile launch systems all in 
that very important orbital regime out there in geostationary 
orbit.
    The Chinese have demonstrated if not the desire, they have 
at least demonstrated the capacity to attack that geostationary 
orbit from above, and that is a critical concern that everybody 
on this Committee should be taking note of because of the 
situational awareness limitations that we have in deep space.
    So when we think about the Moon and when we think about 
Mars, we all want to get to Mars in 2033. I think that's a 
great objective. I will also say that cislunar is critically 
important for the geopolitical position of the United States of 
America and the Mars is the horizon goal. It's critical. We 
need to get there. The Moon I believe is necessary.
    And, Dr. Schmitt, I'm going to turn it over to you for a 
second because you've talked about how it's possible that the 
U.S. Government could in essence provide transportation to not 
only lunar orbit but to the lunar surface and have the private 
sector invest in developing not only the Moon but the capacity 
for cislunar, which is a geopolitical concern right now for the 
United States. Can you address how we could leverage commercial 
in that realm?
    Dr. Schmitt. Well, I've been convinced for a long time, 
Congressman, that ultimately the private sector, as Tom as 
pointed out, can truly commercialize for-profit, exploit the 
resources of the lunar surface, the part of the lunar surface 
called the regolith, which is a debris layer that covers the 
Moon that's several meters thick. That contains hydrogen, 
oxygen, nitrogen, carbon, and helium, and particularly this 
fusion fuel called helium-3.
    So the only basis I'm aware of for a truly commercial 
operation is in lunar resources and both for use in space and 
for use here on Earth. And if the government as it is right now 
is moving towards developing heavy-lift launch vehicles, then 
that opens the door I think for this partnership to really be a 
viable one. And I talk to people about it all the time 
obviously, and we'll just have to wait and see whether the 
investor community or the energy community step up and realize 
that this long-term potential is there.
    Mr. Bridenstine. Thank you. I yield back.
    Chairman Smith. Thank you, Mr. Bridenstine.
    And the gentleman from Virginia, Mr. Beyer, is recognized 
for his questions.
    Mr. Beyer. Thank you, Mr. Chairman. And, Chairman, thank 
you for having this hearing. It's fascinating. Thank all of you 
for being here.
    Dr. Stofan, when Lieutenant General Stafford in his 
testimony he--let me quote it. He said that basically, the next 
flagship science mission will be the James Webb Space Telescope 
initiated in the Bush Administration with nothing comparable 
initiated during the eight years of the Obama Administration, 
and goes on to suggest a lack of leadership during these last 
eight years. You were there as the Chief Scientist. How would 
you react to that?
    Dr. Stofan. Well, obviously, I don't agree with that. We 
initiated the Mars 2020 mission. We'll be setting the stage to 
return samples from Mars in the mid-2020s, which I didn't even 
get into. It's critical to bring those samples back in the 
2020s, which will allow us to develop our entry, descent, 
landing ascent, and return-to-Earth capabilities.
    So Mars 2020, WFIRST, our next telescope after James Webb, 
was initiated under this Administration, a mission to Europa 
initiated under this Administration, this past Administration, 
a revolution in small satellite technology that's underpinning 
the huge revolution. We just saw all these planet satellites 
launched a few days ago. All that technology has been worked on 
a NASA over the eight years. It's transformed through a lot of 
our programs, our small satellite, our lower-cost options in 
astrophysics, heliophysics, planetary earth science. We've made 
incredible progress over the eight years, building on the long 
bipartisan history of NASA.
    And so I don't think it's, oh, we accomplished a lot in the 
past; we've done nothing over the eight years. I think NASA has 
continued to execute the Decadal Surveys. We've made strong 
progress. We will hopefully continue to make strong progress 
with this Committee's support.
    Mr. Beyer. Thank you. Dr. Stofan, one of the--the 
conversations that we have on this Committee is the role of 
Earth sciences in NASA's budget. But as I understand now where 
it's about $1.9 billion out of the $19.5 billion. And I know 
my--the Chairman, my friend, has talked about the rebalancing 
of the NASA portfolio, and so we often are concerned that this 
means the disappearance of the Earth sciences budget as part of 
that, redirecting into deep space, for example. How would--what 
would happen if NASA's Earth science budget were eliminated?
    Dr. Stofan. Well, first of all, I would point out that the 
earth science budget has actually been fairly flat over about 
the last 20-plus years. In fact, if you look back at around 
2000 it was about $1.4 billion, which, if you put that in 
today's dollars, we are actually lower. So the earth science 
budget has actually not grown. It's slightly shrunk.
    Again, NASA has the unique vantagepoint of space. We build 
NOAA's weather satellites, the GOES-R, which has been returning 
amazing images of this planet. That satellite was built by 
NASA. We do have four other agencies. We built Landsat, which 
is critical to farmers, to urban planners all around the world. 
We are studying the global water cycle. We're developing that 
next generation of instruments. NASA's earth science program is 
critically important.
    And I would also remind people that the technologies that 
come out of the investments in the earth science program spawn 
new industries, that downstream application of earth science 
data collected by NASA and made open to the public have created 
new companies--Orbital Insight, DigitalGlobe. I can, you know, 
sit here and name companies that get downstream value, create 
jobs all across this country. The earth science program is an 
investment in this country and it returns benefits to all of us 
every day.
    Mr. Beyer. Thank you. And my friend the Chairman doesn't 
want me to exaggerate, the complete elimination but rather 
rebalancing. Okay.
    Dr. Schmitt, as--wonderful to have the geologists here, but 
I know you're deeply involved in fusion power, too. And you 
talked about fusion power for this. Do you--in your work do you 
see any relevance for fusion power for power here on Earth?
    Dr. Schmitt. Well, I certainly do. I think the--having done 
an economic analysis of this some years ago, I think the 
potential for helium-3 fusion power on Earth is very, very 
great. Now, it's not something that's going to happen overnight 
and it's--it takes a long view of things before you start to 
make a profit on it. But nevertheless, the resources there on 
the Moon, the technology is advancing here on Earth to use 
helium-3 in fusion devices. Most of that has been done with 
private funding so far. You may have recently seen a press 
release from Tri Alpha, a Paul Allen-funded operation where 
they are working on boron--what's called P-boron-11, but the 
technology base is equally compatible for helium--lunar helium-
3 fusion power.
    The nice thing about helium-3 fusion power is that you 
don't produce neutrons. Neutrons are bad actors. They create 
the radioactive waste that we worry about. And certainly DT, 
tritium-deuterium fusion device is going to create a great deal 
of waste, and that's often not talked about when we talk--when 
we think about these--the ITER project in Europe and so forth.
    But helium-3 fusion produces protons, which can be directly 
converted to electricity at very--at high efficiency, as well 
as without the difficulty of waste production. So I think in 
the long term if you want an environmentally--relatively 
environmentally benign energy source for the very long term, 
then this something that ultimately I think we're going to look 
very closely at.
    Mr. Beyer. Great. Thank you very much. Mr. Chair, I yield 
back.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from Texas, Mr. Weber, is recognized.
    Mr. Weber. Thank you, Mr. Chairman. Dr. Schmitt, I think it 
was you early on in your comments who said you think one piece 
of advice you would give NASA was to resist political diversity 
for the agency. Would you elaborate on that?
    Dr. Schmitt. It's just that the kind of things that we've 
talked about in terms of focusing, many of the things that NASA 
does are really within the purview of other agencies, and I 
think that that ought to be examined very closely by this 
Committee, which has the responsibility for several agencies, 
not just NASA. And that just because you start to focus on Mars 
and deep space doesn't mean that these other programs have to 
go away. They can be, I think, taken under the umbrella of 
other agencies, and that ought to be looked at very carefully.
    Now, does NASA stay in the business of actually providing 
technological assistance such as they do for NOAA? That's a 
question that you'll just have to discuss and try to answer. 
But other agencies do have the same responsibilities in the 
areas where NASA has been diversifying over the last several 
decades.
    Mr. Weber. Okay. There was a little bit of the conversation 
I think that the Ranking Member, Chair just alluded to that it 
seems like there would be a rebalancing of the budget, and 
perhaps that's part of what you're taking on in the budget 
process.
    I cannot overstate what I believe is the importance of 
NASA. And, Lieutenant General Stafford, I don't want to get 
into your bailiwick but--not having had the privilege of 
serving in the military you know, they say that whatever force 
occupies the high ground has the upper hand, and folks, there 
is no higher ground than space.
    And to my good friend from Oklahoma, Congressman 
Bridenstine's comments about the Chinese able to shoot down 
satellites, that ought to be pretty alarming and a wakeup call 
for us all.
    You actually said in an exchange with Suzanne Bonamici 
earlier--or the comments were that she didn't want space 
exploration to become an issue between the United States and 
Russia. Well, that was before Jim had made his comments about 
China. Do you think that's a prudent outlook to not be on guard 
and to really want that competitive edge and that military 
edge? Do you think United States literally ought to be going 
after that kind of edge?
    Lt. Gen. Stafford. Well, Congressman, to me the United 
States--in this case it would I would think the Air Force's 
responsibility--it could be Army and the ballistic missile 
defense, but we need to be the leaders in the world. And we 
need to have, under the DOD, funds for that.
    Mr. Weber. So you would say that the leaders in the world 
not just because of STEM and the other--the pride that Dr. Ami 
Bera talked about but other issues but for national security?
    Lt. Gen. Stafford. Right, for national security, 
absolutely, what Congressman Bridenstine has mentioned there, 
that we need to be right there out in front of everything, on 
top of everything.
    Dr. Schmitt. We--Congressman, if I may just add to those 
remarks, we tend to forget that Apollo was a creature of the 
Cold War. It really was.
    Mr. Weber. Oh, I don't forget.
    Dr. Schmitt. And we gained a great deal of science, a great 
deal of technology, and many, many other things from that 
effort. But the stimulus, the impetus was the Cold War and a 
very important part of it----
    Mr. Weber. Right.
    Dr. Schmitt. --I would say. So that has to be kept in mind. 
And as far as I'm concerned, with Congressman Bridenstine's 
comments, we are very close to being in a Cold War today and 
need that kind of----
    Mr. Weber. Right.
    Dr. Schmitt. --impetus and with a milestone focus as was 
discussed earlier.
    Mr. Weber. Well, thank you for saying that. And the 
gentlelady from Oregon is not here, but I think one of the 
comments she made was that she didn't want to see this become 
an issue between the United States and Russia, but I think when 
you're dealing with the Russians giving us a ride, to the space 
station, which to me is an absolute travesty, I think we have 
to differentiate between the Russian space agency--and y'all 
would know that better than I would--and the Russian military.
    But I would tell you, not knowing any more about that 
differentiation or either of those agencies than I know, I 
would have to believe that either one--they would sell us down 
the river in a heartbeat if it was to their advantage 
militarily. Would y'all agree with that?
    Dr. Schmitt. I would.
    Lt. Gen. Stafford. Well, we have to look at it in certain 
ways. The arrangements with Russia is like a stovepipe. We deal 
with the Russian space agency, but they have lots of other 
responsibilities besides what we call, quote, ``civil space.'' 
And they have lived up to their agreements on that, but they 
have other agreements, too. They have other things that they 
support----
    Mr. Weber. Okay.
    Lt. Gen. Stafford. --where NASA is primarily all civil. And 
had we continued on the Constellation program, we'd have had 
American astronauts flying on American rockets in spacecraft in 
late 2013 or early '14.
    Mr. Weber. Right. Well, thank you for saying that.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Weber.
    And the gentleman from Colorado, Mr. Perlmutter, is 
recognized.
    Mr. Perlmutter. Thank you, Mr. Chair. First, I'll start 
with us. We start them young in Colorado. Got the outfit at the 
Air and Space Museum. Finn Henderson, 4 months old.
    Chairman Smith. Any relation?
    Mr. Perlmutter. Yes, grandson.
    Chairman Smith. Grandson. Okay.
    Mr. Perlmutter. Twenty thirty-three, and so, General, I 
want to talk to you about this and to the entire panel. And I 
thank you all very much for your testimony today and for your 
service. And, Senator, I'm going to get to you because we're 
going to talk about budgets for a second.
    But you mentioned sort of the orbital mechanics of all of 
this, and we had a panel about this time last year of some NASA 
agency execs, and I expressed to them my disappointment that we 
hadn't gotten to Mars by now, you know, Star Trek, Star Wars, 
on the Moon 40 years ago-plus, and why aren't we there? And 
they said, well, because of fits and starts between 
Administrations and Congresses. And I said if you had the 
revenue, if you had the support, steady, sufficient revenues, 
what's the earliest we could get to Mars? And I was hoping 
they'd say 2024 and then they kind of went through the two-year 
cycles that you just talked about and they said 2033 if they 
had steady, sufficient support.
    But that's the $64 question because it hasn't--it's been 
kind of fits and starts for all of you. And I, as a legislator, 
apologize for that because we haven't given you the steady 
support. And to your point, Mr. Young, you know, it's a mixture 
of things, the agency's expertise, the private sector's ability 
to really bring forces and potentially the international 
community as well.
    So it's a responsibility. I mean we find more common ground 
on this Committee than any of the other committees I've served 
on in this Congress. And this area especially, space 
exploration, is the place where I think we really do all have a 
common interest and want to see us move forward. And it might 
be a different thing for each of us, what floats our boat, 
whether it's a national security question or a science and 
pride question, but whatever it is, maybe we are at the 
confluence of something big here.
    And the reason I'm looking at you, Senator, is the revenues 
are a hard thing but they're not impossible. We came up with 
$800 billion over a weekend to save the banks in 2008. It was a 
Republican Administration and a Democratic Congress. If we 
can't--and the number that was given to us was about $200 
billion, maybe 250 over 17 years to get to Mars and, you know, 
different kinds of ways to do it. I'm a lawyer. I'm not going 
to say other than I'd like to see this result and let you 
scientists and engineers tell us how to put the pieces in 
place. So I'd just like your reaction to that.
    Dr. Schmitt. I think you've hit on a very important point 
and that rather than thinking in terms of what is the total 
cost, you need to think in terms of what is a reasonable annual 
cost of going forward. I think that's what happened to the 
initiative in the Bush 41 Administration is that it got tarred 
with a total cost when you can't operate that way. You've got 
to operate on an annual basis, as you've indicated, and we need 
to decide what that is. What is a reasonable number in order to 
make the milestones?
    Now, I think 2033 is probably doable. I did not have it on 
my list of milestones primarily because I'm still not sure that 
we're going to give NASA the management tools to make that 
happen.
    Mr. Perlmutter. Well, and----
    Dr. Schmitt. And this is not the NASA that I--that was 
managing things when Tom and I were flying in Apollo.
    Mr. Perlmutter. So let me talk to about that. Let's say, 
you know--and you know from being a legislator and the 
diversity of interests around this place how difficult it may 
be for all of us to come together to have a 17-year plan. 
Sometimes we can't plan 17 minutes, but if we're able to do 
that, I'm assuming--and I look to you, Mr. Young, and to you, 
Dr. Stofan, and, General, to you for your comment--can NASA, 
together with its private sector contractors, find the 
management tools to do it? Or is that an impossibility?
    Dr. Stofan. You know, I've spent the last three years 
visiting every NASA center around this country talking with our 
private space contractors. The people at NASA are totally 
capable of doing this. They are chomping at the bit. They need 
clear direction, they need focus, and they need budgetary 
support. The people are there; the expertise is there. They're 
waiting and they're eager to get started on this.
    Mr. Young. You know, I think Ellen said it very well. I 
agree with that. I mean, I think it clearly can be done but it 
takes some bold leadership, you know, to make it happen. I must 
share with you--you're talking about dates and some of these 
dates are mind-boggling to me. You know, we were talking about 
earlier Kennedy's thing. I think from Kennedy's statement to 
humans on the Moon was eight years. I remember the first large 
space project I worked on as a very junior engineer was the 
original lunar orbiter where we took the photographs and found 
the landing sites for Jack and----
    Dr. Schmitt. It was a wonderful program, Tom.
    Mr. Young. That program from start until we were in orbit 
by the Moon was 27 months. And by the way, we were criticized 
because the commitment was 24 months.
    So we obviously have allowed--which I think is what Jack 
was trying to say--we've allowed an enormous amount of non-
value-added work to creep into our execution of programs and 
that's something that--you know, that we should try to 
eliminate them as we can. But I think Ellen said it well. I 
think the people who will do this job are chomping at the bit 
for the leaders to just unbridle them and let them go.
    Mr. Perlmutter. Thank you. General?
    Lt. Gen. Stafford. Well, the one word that sticks in my 
mind, Congressman, is that this Committee was really the 
epitome of back in 2010 is the word courage. And this Committee 
and its corresponding committee in the other body put forth 
their courage right in front of what the Administration did and 
canceled Constellation and started the SLS and Orion.
    But when you said why weren't we there in 2016, well, we 
did the study for President Bush 41 and Vice President Quayle 
at his joint press conference. Our target for Mars was 2016, 
sir, 2016.
    Mr. Perlmutter. Well, we've got to get on our horse here 
and get it done for you. Thank you.
    Lt. Gen. Stafford. And one thing about it, again, when I 
recommend the National Space Council so you have somebody with 
horsepower at the top. It doesn't take any big bureaucracy. 
Four or five people is all you need in the National Space 
Council and take it and drive it so you don't have these 
detractions.
    Chairman Smith. Thank you, Mr. Perlmutter.
    The gentleman from California, Mr. Knight, is recognized.
    Mr. Knight. Thank you, Mr. Chair.
    I'm going to talk about a completely different subject. I 
know everyone wants to talk about Mars and the Moon and that's 
great and they're laudable goals, but you can't get to space 
until you go through the big A, so I'll be talking about the 
big A. Aeronautics is now about $700 million I noticed in Dr. 
Stofan's comments. I read through them and I appreciate her 
bringing up the X-Plane program and bringing up all the things 
that we can do.
    Lieutenant General Stafford, I will go with you first. We 
now have a new aviation horizons effort where we have many X-
Plane programs that are coming online. The X-57 is the new 
designation. But the big one that I'd like to talk about is the 
low boom supersonic demonstrator because we've been flying 
across this country at .8 Mach for as long as we have flown 
across this country. And I would hate for my children who are 
now in their early 20s to be my age someday and say hey, we're 
still flying across this country at .8 Mach.
    And I think that that would be one of the great 
achievements that we could do, that NASA could do to prove 
this, to lower the supersonic boom down to the 65 decibel or 
lower so that we could remove this archaic 1973 FAA law and 
really do something so we could travel across this country at 
1.8, 1.9. And think of what the economic boom that would be 
that people could get to their destination 2 hours quicker that 
are going across the country. So just your opinion of that, 
Lieutenant General?
    Lt. Gen. Stafford. Well, Congressman Knight, I think you 
have made a very valid point in particular not only across the 
country but across the ocean.
    Mr. Knight. Sure.
    Lt. Gen. Stafford. And I've been fortunate to fly the 
Concorde many times, so I think you're right on.
    I'd like to remind the Committee that Congressman Knight's 
father was a classmate of mine in Air Force test pilot school, 
and he flew the X-15 and he set a couple of world records that 
still stand so we're very proud of your father----
    Mr. Knight. Thank you.
    Lt. Gen. Stafford. --Colonel Pete Knight. But your X 
program I think is very valid, sir.
    Mr. Knight. Thank you. And Dr. Stofan, if you have any 
comments on that.
    Dr. Stofan. I think NASA's aeronautics program, as I said 
in my submitted remarks, is really critical. Obviously the 
aviation industry is a hundreds-of-billions-of-dollars industry 
here in the United States, and the fundamental research that 
NASA does from looking at all of the technologies that that we 
help to develop that are in the new--latest Boeing aircraft, we 
really underpin a lot of the developments in the U.S. aviation 
industry.
    And so from the low boom demonstrator to the X-Plane 
program, the investments that NASA makes in aeronautics are 
really critical, and I think they should be supported by this 
committee going forward.
    I would point out we're also doing work in green fuels, 
which is critical because when you fly planes at supersonic 
altitudes you're putting greenhouse gases into a place in the 
atmosphere where they reside for a long time. So NASA also is 
doing a clean fuels program along with the low boom 
demonstrator. Both of those are critical for allowing 
supersonic air transport.
    Mr. Knight. Absolutely. And I wanted to bring up just 
another point. I know that Mars and the Moon are the big goals, 
they are, and I think that the way that we get to those big 
goals--and I think Dr. Schmitt said it--that you've got to lay 
out the goal and you've got to say that we are going to do this 
by 2032 or we are going to set this. And we've got to fund it 
every year. That is Congress' mission, to fund it every year.
    The smart people will figure it out. NASA is way ahead, and 
I know that they can accomplish these goals, but if we don't 
fund it every year and if we don't have a mission through 
Administrations, we will not get there. It will be a start and 
stop just like we have done with many different programs. And I 
bring up hypersonics that we have worked on for the last 50 
years in start-and-stop issues. Our last start and stop was the 
X-43 and the X-51, and we have done great data-collecting of 
those periods of time. But now we are seeing other countries 
take our data, steal it, and then jump forward and then maybe 
fund. So now we are seeing other countries maybe establish a 
weapon that would hurt us at 3,800 miles an hour.
    And so those are the things that NASA has also got to be 
very cognizant of when we do these budgets is that the big 
items are the big items, but there are also many, many items 
that accomplish missions. And my time is----
    Dr. Schmitt. Congressman, if I could----
    Mr. Knight. Yes, sir.
    Dr. Schmitt. --I have suggested--and I think that the 
implication of your remarks is that aeronautics is terribly 
underemphasized. And one way in which you might assist the 
refocusing of NASA is to recreate the equivalent of the old 
NASA Advisory Committee on Aeronautics, NACA----
    Mr. Knight. I firmly agree.
    Dr. Schmitt. --and let it stand on its own, and I think it 
can stand on its own. From Apollo on, NACA programs contributed 
a tremendous amount to Apollo, but then the aeronautics 
research in general began to decline under those pressures. And 
I'd like to see a whole new emphasis in aeronautics, and I 
think you can do it with recreating an agency that has a focus. 
I like focused agencies. I really do.
    Lt. Gen. Stafford. Congressman Knight, the one thing, too, 
that you need to do is coordinate with the Air Force research 
lab. I think this is a great way for cooperation. And there's 
no doubt. You brought it right out that--I've been briefed on 
some things the Chinese have done, and they've really advanced 
in hypersonics and weapons, not nuclear but just with chemicals 
or you put just energy, v squared over 2g, it's got a real 
tremendous effect. But you're right on on that. We need to get 
back into hypersonics.
    Mr. Knight. Thank you, sir.
    Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Knight.
    And the gentleman from Texas, Mr. Babin, is recognized.
    Mr. Babin. Yes, sir, Mr. Chairman. Thank you very much.
    It's just been a real treat to hear you experts give great 
testimonies, and a lot of great questions have been asked and 
had some very enlightening answers. I have several questions 
that I wanted to ask but I think we've already touched on them. 
But there are several questions that I feel like I'd like to 
ask about an announcement that was made yesterday. Acting 
Administrator Robert Lightfoot of NASA announced that he was 
directing Bill Gerstenmaier to conduct a feasibility study to 
determine whether the first exploration mission EM-1 using SLS 
and Orion could be flown with a crew. It's currently planned as 
an un-crewed test flight, as you know. We welcome that news of 
this study, but some of the questions that this may elicit I 
would like to hear some of your opinions.
    The first one, is it possible to technically justify it? 
Can the additional risks be justified and addressed? Should 
there be an off-ramp if the schedule slips too far or cost 
comes in too high? Is there an alternative scenario that 
accelerates flying astronauts--that accelerates exploration by 
moving EM-2 forward as well? So I would like to ask each of 
you. We'll start with you, Dr. Schmitt. Is it possible to 
technically justify this?
    Dr. Schmitt. I have no idea. I think both outside and 
inside of NASA are going to have to look at it very closely, 
whether you can man-rate the system that fast and----
    Mr. Babin. Yes.
    Dr. Schmitt. --meet the kind of kind of criteria that Tom 
has put forward on many occasions that meet the safety 
requirement. You know, the one thing that will always hurt a 
space program is an accident, and there's always risk and you 
have to be willing to take those risks, but still, you also 
have to make sure that you fully understand the risks that 
you're taking. And that I think we'll just have to wait and 
see. It also depends on what the Administration decides it 
wants to do. The next NASA Administrator will certainly be 
responsible for doing whatever that turns out to be.
    Mr. Babin. All right. Okay. Thank you.
    Yes, Lieutenant General Stafford.
    Lt. Gen. Stafford. Right, Mr. Babin, the space shuttle, we 
flew that crew on the first flight and it flew. And I was 
involved with that decision because at that time--it was a few 
years when I was head of the astronaut group with Dick Slayton. 
We did not have faith in the autopilots. And I think what we'll 
have on the SLS--we're using parts that's been there before, 
and the main core has four space shuttle main engines and 
they've been liquid engines and they've proved out over a 
period of time. The solid rocket boosters are elements of the 
space shuttle. They're a five segment now instead of four. The 
upper stage, they're going to have four RL10s, and those have 
been around for 50 years, improving all the time. And the last 
I saw, sir, there's been 480 straight flights. So the power 
plants----
    Mr. Babin. Good.
    Lt. Gen. Stafford. --are in pretty good shape I think, so 
it's main thing is building the core. And I would feel better 
about flying this than we did other things.
    Mr. Babin. Thank you for that.
    Dr. Stofan?
    Dr. Stofan. You know, obviously the approach Robert's taken 
by having Bill Gerstenmaier do a study I think is the correct 
one and NASA will, whether it's commercial crew or whether it's 
the SLS Orion flight, will always put safety first. Would I 
personally love to see the schedule accelerated? Yes, I would 
love that. The sooner we get to Mars, the better.
    I think a bigger issue is one that we touched on earlier is 
that flight rate of SLS and Orion going forward after that 
first flight, which I think is still an ongoing concern.
    Mr. Babin. Yes. Okay. Mr. Young?
    Mr. Young. Yes, just to add my comments. I think doing the 
study is good so I applaud that. A little bit of what Ellen 
just said, you know, I would actually add a part B to it, and 
that is, God, it's a long time between the first flight and the 
second flight today, you know, the plan with the first one 
being un-crewed and the second one some few years later, which 
I don't remember the exact number of years but some years later 
with a crewed. And so part B in my mind if you're really going 
to take a hard look at this overall plan is how can you 
accelerate it so that you do the first one and then within a 
few months after it you do the second one?
    You know, somebody commented earlier about the number of 
flights of the Saturn V within a year----
    Mr. Babin. Right.
    Mr. Young. So I think whether the first one ends up being 
crewed or un-crewed as the current plan is, the second one 
being as soon after it as is practical, meaning a few months, 
which is probably a budget issue but would be a responsible 
thing to consider.
    Mr. Babin. Thank you very much. And, Mr. Chairman, I yield 
back.
    Dr. Schmitt. Just----
    Mr. Babin. Does somebody have something else? Yes, sir.
    Dr. Schmitt. Just quickly, a little history, the first 
full-up use of the Saturn V with a crew was the Apollo 8 
mission around the Moon, so you're saying can we do that now 
with the SLS, the same kind of thing.
    Mr. Babin. Same answer that----
    Dr. Schmitt. And the Apollo 8 mission of course was sort of 
an afterthought when we were running behind schedule on the 
lunar module, and they actually had had problems with the 
Saturn V on one of the un-crewed launches, and that had to be--
the pogo problem in that case. And they even had some of that 
problem on the Apollo 8 launch.
    So you have to make sure that you really understand your 
launch systems and the full-up system is what's important. And 
that was Dale Myer's orders to von Braun is let's launch this 
thing full up finally because von Braun would have tested it to 
death. I think even he admitted that later.
    Chairman Smith. Okay. Thank you, Mr. Babin.
    Mr. Babin. Thank you, Mr. Chairman. Thank you.
    Chairman Smith. The gentleman from Louisiana, Mr. Higgins, 
is recognized.
    Mr. Higgins. Dr. Schmitt, in your long list of 
accomplishments, your bio, you've helped to uncover much of the 
geological history of the Moon and its relationship to the 
early history of the Earth, further definition of the violent 
impact history of the Earth during the period when life began, 
the potential role of the largest impact basin and the 
evolution of the Moon, identification of samples of the lunar 
mantle, the definition of the sequence of formation of three 
large lunar basins, the list goes on and on but it does not 
mention that you were certainly the only pilot in history that 
almost landed a lunar modular on an aircraft carrier.
    Dr. Schmitt. Well, you know, thank goodness the Navy moved 
the carrier because our guidance system was so good we were 
about to hit the carrier.
    Mr. Higgins. You were on target. I bring that up, that 
aircraft carrier was the USS Ticonderoga. My father was a Navy 
pilot in World War II and had the honor of serving on that 
aircraft carrier. My father was a fiercely patriotic man and 
did not trust the Chinese or the Russians. Perhaps by the 
nature of my DNA but certainly through the course of my life 
and in view of recent events politically and space-based, 
neither do I.
    So my question to you, sir, is regarding America's interest 
in maintaining a persistent human presence in space, be that 
human presence on the frontier, in a low-Earth orbit, 
geostationary, or an American human presence based on the Moon, 
is it necessary that we involve international partners as we 
push the frontiers of the American space program?
    Dr. Schmitt. I personally do not think it's necessary. I 
think it takes the United States to be the leader of a program, 
as it was in Apollo. We had international partners to some 
degree in Apollo. We certainly had a lot of international 
participation by some of the engineers, and the lunar sample 
analysis program was an international program. So yes, but it 
takes our leadership. I think we need to be in charge in order 
to provide an opportunity for international partnerships.
    But no partnership, I think, should be in the critical 
path. If you're going to go to Mars by way of the Moon, that 
critical path has to be our responsibility. You can't be 
waiting for some other partner to deliver and to make--and--
again, I think it's just absolutely essential that there be a 
leader of these kind of programs.
    Mr. Higgins. I concur and thank you.
    Lieutenant General?
    Lt. Gen. Stafford. Yes, sir. I like what Dr. Schmitt said. 
We--America needs to be a leader. If you're going to be first 
in the world, you need to be first in space and we have to be a 
leader. And I've been deeply involved with the International 
Space Station, the partners. I've been deeply involved earlier 
with the Soviets and now the Russians. And to me you have to 
completely differentiate the Soviets from the Chinese. It's a 
whole different world.
    And I've been to Russia maybe 35 times. In fact, I adopted 
two Russian orphan boys. So I think I understand a lot of the 
Russians and what it is that--it takes too long to go into it 
in this Committee, but the Chinese are a complete different 
type of effort. And so I agree with your father on the Chinese 
completely. And in the Russians, it's really one more of 
nationalistic and it's now materialistic, too. But it's a 
different world, and it takes too long to go into it here.
    Mr. Higgins. That's a unique and valuable perspective. I 
would encourage my colleagues and the members of this committee 
to maintain a sharp focus on our national security as we move 
forward with our plans to advance the causes of NASA. And I 
certainly agree with this panel that has appeared before us 
that we need to be completely focused with the mission 
parameters, as laid out over the next 15 or 17 years. It seems 
to be the window. And I look forward to working with my 
committee members and colleagues on both sides of the aisle to 
make it happen.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Higgins.
    And the gentleman from Florida, Mr. Posey, is recognized 
for his questions.
    Mr. Posey. Thank you, Mr. Chairman. Thank you for calling 
this hearing, Mr. Chairman, and I thank the witnesses for 
coming here.
    It's been probably five decades that I have respected and 
admired you and your accomplishments. The words that come out 
of your mouth are like gospel to me, and I just can't thank you 
enough for your attendance here. I was in high school when 
Kennedy gave his famous speech about why go to the Moon, and 
that became my first priority in life was to have my 
fingerprints on that rocket that took our men to the Moon and 
return them safely. And in general I appreciate you pointing 
out the third stage references a while ago, and that was my 
stage. And I'll forever be proud of that. A little bit of a 
lump.
    You know, poll after poll, study after study, survey after 
survey shows the general public thinks we spend 20 to 25 
percent of our budget on space. And we all know it's more like 
1/2 of one percent. And they don't understand the benefits. 
They don't understand the importance to our national security, 
the ultimate military high ground, the economic, the STEM as 
you so well pointed out, the benefits of it. And so, you know, 
we're trying to change that.
    And we're trying to make sure or ensure that NASA considers 
everything that they do as a steppingstone to going to Mars. We 
think that's got to be the priority. When everything is a 
priority, nothing is a priority. And that's where we are now 
so, you know, kind of playing whack-a-mole.
    I usually carry around a chart that has like over two dozen 
missions to nowhere started by one Congress or one 
Administration and canceled by another. And you mentioned, 
Lieutenant General, a little while ago we'd probably be on Mars 
now if we had stayed the course last time. That's really a big 
problem that we have.
    Selling our colleagues on the importance of space is not an 
easy job either. The people on this Committee all respect space 
and are enthusiastic about space, and you ask anybody on my 
staff what do you do in Congress, well, the first thing we do 
is we still sell space every day in every way. You know, it's 
important. And you all remember when the space station survived 
by just one vote in Congress.
    So we keep a running list, a hit list, who's with us, who's 
against us, who says they're with us, who's not. And we try and 
keep this in perspective, but, you know, we've seen a budget--
NASA budget take hits for a big city cops police plan. We've 
seen another department take money out of NASA to do a 
responsibility they're already tasked with and they're already 
funded for. You know, the NASA budget is kind of like--been 
like a big pinata occasionally, and we want to see that doesn't 
continue.
    But we have to sometimes consider that maybe NASA is not 
our biggest assistant in this. And I want to share with you one 
time, you know the beautiful educational and impressive press 
kits that we did for each shuttle launch that anybody came to 
one of those, there's a decal and the stories and the stickers 
and the pins and, I mean, very impressive. If you went to 
launches, you'd see people clutching these valuable things.
    And so when they did the last shuttle launch, I contacted 
my local NASA P.R. people and said, look, I'd like to get 434 
press kits, and I'd like to make it a priority next year to 
deliver one to every Member of Congress and talk about how this 
would be a treasure for their grandchildren and, you know, 
there won't be any more of these and give me the opportunity to 
discuss one-on-one and have something in hand because Members' 
times are valuable.
    Well, my local P.R. people went to work to get that for me 
but NASA Washington said no. They said that's not your job. So 
you know who did it? Nobody did it. And it's a great 
opportunity lost.
    So, with the time remaining I'd kind of like your thoughts 
on promotion, where you think we could do more, where we could 
be more persuasive with NASA.
    Lt. Gen. Stafford. Well, you're my Congressman now since I 
live in Satellite Beach.
    Mr. Posey. Well, you and Buzz both.
    Lt. Gen. Stafford. Yes.
    Mr. Posey. Well, thank you. Don't hesitate to call on me, 
Lieutenant General.
    Lt. Gen. Stafford. Right. But, you know, what I've observed 
over the years--and, Jack, I'd like your opinion, too--one of 
the weaknesses of NASA has been its public relations.
    Mr. Posey. Yes.
    Lt. Gen. Stafford. That goes all the way back starting with 
Gemini. And I remember George Low was so aware of this when he 
was the Deputy Administrator. But it's been there and is 
something that you brought out very well.
    Mr. Posey. Thank you. Thank you.
    Dr. Schmitt. When I was chairing the NASA Advisory Council, 
it was--this was something that came up and the budgets that 
were being allocated for outreach and education--and I'm not 
sure where that allocation came from, whether it was within 
NASA the OMB or the Congress, but for this kind of outreach 
that you described budgets were going down and they probably 
are even lower now than they were then. And we raised that 
issue and it was one that apparently was unresolvable. And my 
memory is not clear exactly if I ever was clear on why it was 
unresolvable.
    When Tom and I were active, NASA did have a reasonably good 
outreach program. If you weren't assigned a crew, for example, 
there was your week in the BARREL, and about every 8 months we 
would be given to NASA headquarters to fill requests from 
Congress and elsewhere for appearances. And so for a week about 
five or eight times a day we would fulfill these requests all 
over the country. That was excellent. They also had a van--
several vans that would go around the country and visit schools 
and other facilities. I was told hundreds of times how 
effective those vans were in outreach to school systems.
    Mr. Posey. Yes.
    Dr. Schmitt. So there--it's not that NASA hasn't had a 
history of knowing how to do that. It's just that right now my 
understanding the budgets don't exist, and I know the vans 
don't exist anymore. And I don't think that the week in the 
BARREL exists anymore because my understanding is if you want 
an astronaut appearance, the sponsor has to pay all the 
transportation, everything, all the costs. So if you want a 
better outreach program, the funds have to be there to do it.
    Mr. Posey. Thank you. Thank you, again. Anybody else?
    Dr. Stofan. If I could just point out, NASA partners with 
museums all around the country. We touch thousands of kids 
every day through Boys and Girls Clubs programs. We reach kids 
in afterschool programs. Our social media sites are some of the 
most popular in this country.
    But I would also point out that the way we get the most 
people engaged in NASA is Curiosity landing on the surface of 
Mars, the Pluto encounter. Every time you're going to see SLS 
launch, when we see commercial crew on its way to the space 
station, these are the ways we engage the public, by doing 
great and amazing things. That's our best outreach.
    Mr. Posey. Well, and I think that's awesome, and I liked on 
their website where you can buy a ticket to the Moon now--I 
mean, a ticket to Mars. I went on and applied. I'm still 
waiting 14 months but, you know.
    Chairman Smith. The gentleman's time has expired.
    Mr. Posey. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Posey.
    The other gentleman from Florida, Mr. Webster, is 
recognized for his questions.
    Mr. Webster. Thank you, Mr. Chair. Thank you for putting 
together this fantastic panel, the best one I've ever had in my 
whole time in Congress is this group. I've learned a lot.
    I would like to ask Dr. Schmitt a question. In your 
presentation, you gave quite a few items on the key to success 
of the Apollo program, and one of those was the sufficient base 
of technology. And my question is is that base knowledge or is 
it hardware or is it people? What were you speaking of when you 
were saying that you need a sufficient base of technology?
    Dr. Schmitt. Well, thank you, Congressman. It's an 
important question. Before Apollo we had the component base of 
technology, the engineering understanding of many aircraft 
systems and some spacecraft systems that came out of the World 
War II and the Cold War, primarily out of the Defense 
Department. There was that kind of understanding.
    The X-15 program was an extraordinarily important part of 
the NACA, the National Advisory Committee on Aeronautics, 
activities that fed into NASA both in terms of understanding 
flight in difficult regimes but also because Bob Gilruth, who 
was the head of the Space Task Group, had managed--and they 
were managing the X-15 program. So that knowledge, that 
managerial knowledge was a very important component.
    But we also inherited the managerial knowledge from a 
Canadian aircraft program that was canceled by Canada, the Avro 
Arrow aircraft program. And many of the people that came into 
NASA particularly in flight control--John Hodge and the like--
were out of that Canadian Arrow program. Gilruth had made a 
specific trip to go up there and recruit.
    So that's what I'm talking about when I say a base of 
technology. It's not only the components, the microelectronics 
that were just coming on, some of the materials that were just 
coming on, but it's also, if you will, the technological 
understanding of how to manage complex programs.
    And now, today, I think we're in much better shape, as I 
said in my testimony, than we were for Apollo. The base has 
much expanded, primarily because of the innovations in the 
private sector, the advance of computer technology. We were 
advancing it for Apollo, but all of a sudden it took its own 
legs and ran within the private sector. So that base right now 
from the point of view of both flying and manufacturing is so 
much stronger today than it was for Apollo.
    So I really think that if you all and others decide let's 
go, let's focus, we're ready to move. I think we can make 
progress and we can get up to a heavy-lift launch a year. In 
fact, that was probably the biggest mistake we made, and it 
started way back in the Johnson Administration is that we only 
bought 15 Saturn V's. And the Nixon Administration confirmed 
that decision. We should have had that production line going 
continuously and launching a couple times a year, and we would 
have met that 2016 date without question. The Saturn V was a 
very robust system and could have done everything that we've 
done since and more.
    You got me started on something that----
    Mr. Webster. Well, let me ask another question about the 
funding. I was thinking as we were talking about prioritizing, 
which I think is a great thing, and we pick our spots and maybe 
all of them are laudable but we can only do so many and if we 
focus all of our money there, then we'll accomplish the goal. 
Is there any thought that the other ancillary savings that come 
from the advances made by space exploration could be funded 
from areas that we're spending--maybe futilely spending money 
on trying--for instance, someone said that every time there's a 
launch, there's a heightened interest in STEM education.
    Well, if that be the case, maybe we spent too much on 
getting consortiums together and funding those and trying to 
figure out how we're going to encourage somebody who's in the 
seventh or eighth grade to begin thinking about becoming an 
engineer or something else in the technology sense. Maybe 
there's a broader prioritization that could take place. Maybe 
there's advances made in health care or maybe there's advances 
made in other things and technology that come from space 
exploration that we're funding but maybe we're funding and the 
results are way less than would happen if we were just doing 
that. Do you have any comments about that?
    Dr. Stofan. You know, the problems with funding basic 
research, whether it's in technology development or in 
scientific areas is you really don't know where those spinoffs 
are coming from. Every day--every year at NASA we publish a 
spinoff book about this thick of spinoffs that have come off. 
If we could predict every one of those, I would agree with you, 
but the problem is we can't. And so when you're investing in 
basic research, basic science, basic technology, you don't know 
where the payoff is going to be. You just know there's going to 
be payoff because we've demonstrated that in this country for 
well over 50 years.
    Mr. Webster. Anyone else? Yes.
    Lt. Gen. Stafford. Well, one thing, again, all of us have 
talked about and the Chairman has talked about is the 
stability, is--that does not change between when 
Administrations change. And the first time this ever happened 
was when the Clinton Administration came in because, you know, 
it was President Reagan that started the space station and that 
continued on. President Nixon started the space shuttle and 
that continued on whether it was Democrat or Republican. And 
then it started with the Clinton Administration and the next 
time it happened, bang, was with the last Administration. And 
those two square waves really set us back.
    Mr. Webster. Okay. Thank you very much. I yield back.
    Chairman Smith. Thank you, Mr. Webster. And let me thank 
all of our experts for being here today. You could clearly tell 
by the participation and by the enthusiasm of our members that 
we all support America's initiatives in space, and you all have 
been a big part of that for many, many years and I hope will 
continue to be a big part of that as well. So thanks again.
    Feel free to contact us any time with your advice and 
counsel. We would look forward to that.
    And we stand adjourned.
    [Whereupon, at 12:41 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
